<html>
<title> - EXAMINING TRIBAL PROGRAMS AND INITIATIVES PROPOSED IN THE PRESIDENT'S FISCAL YEAR 2011 BUDGET</title>
<body><pre>[Senate Hearing 111-593]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-593
 
 EXAMINING TRIBAL PROGRAMS AND INITIATIVES PROPOSED IN THE PRESIDENT'S 
                        FISCAL YEAR 2011 BUDGET 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 25, 2010

                               __________

         Printed for the use of the Committee on Indian Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

58-128 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
DANIEL K. AKAKA, Hawaii              TOM COBURN, M.D., Oklahoma
TIM JOHNSON, South Dakota            MIKE CRAPO, Idaho
MARIA CANTWELL, Washington           MIKE JOHANNS, Nebraska
JON TESTER, Montana
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Allison C. Binney, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel
















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 25, 2010................................     1
Statement of Senator Dorgan......................................     1
Statement of Senator Franken.....................................     4
Statement of Senator Johnson.....................................     5
    Prepared statement...........................................     5
Statement of Senator Murkowski...................................    27
Statement of Senator Tester......................................     6
Statement of Senator Udall.......................................     6
    Prepared statement...........................................     7

                               Witnesses

Echo Hawk, Hon. Larry, Assistant Secretary for Indian Affairs, 
  U.S. Department of the Interior; accompanied by: Jerry Gidner, 
  Director, Bureau of Indian Affairs and Bart Stevens, Acting 
  Director, Bureau of Indian Education...........................    14
    Prepared statement...........................................    15
Keel, Hon. Jefferson, President, National Congress of American 
  Indians........................................................    31
    Prepared statement with attachment...........................    33
Perrelli, Hon. Thomas J., Associate Attorney General, U.S. 
  Department of Justice..........................................     8
    Prepared statement...........................................     9
Roubideaux, Hon. Yvette, M.D., M.P.H., Director, Indian Health 
  Service, U.S. Depatment of Health and Human Services; 
  accompanied by Randy Grinnell, Deputy Director.................    10
    Prepared statement...........................................    12
Shuravloff, Hon. Marty, Chairman, National American Indian 
  Housing Council................................................    57
    Prepared statement...........................................    59
Whitefoot, Hon. Patricia, President, National Indian Education 
  Association....................................................    43
    Prepared statement...........................................    45

                                Appendix

American Indian Higher Education Consortium, prepared statement..    77
Begay, Hon. Edward T., Chairman, Navajo Agricultural Products 
  Industry, prepared statement...................................    75
Gipp, David M., President, United Tribes Technical College, 
  prepared statement.............................................    69
Iron Cloud, Paul, CEO, Oglala Sioux (Lakota) Housing, prepared 
  statement......................................................    74
Kawerak Incorporated, prepared statement.........................    90
Miller, Lloyd B., Sonosky, Chambers, Sachse, Endreson & Perry, 
  LLP on behalf of the National Tribal Contract Support Cost 
  Coalition, prepared statement..................................    72
Pruner, Mark, President, Native American Broadband Association, 
  prepared statement.............................................    84
Response to written questions submitted to Hon. Thomas J. 
  Perrelli by:
    Hon. Byron L. Dorgan.........................................   110
    Hon. Tom Udall...............................................   112
Response to written questions submitted by Hon. Tom Udall........   107
Rock, Dr. Patrick, President-Elect, National Council of Urban 
  Indian Health, prepared statement..............................    87


                     EXAMINING TRIBAL PROGRAMS AND 
                      INITIATIVES PROPOSED IN THE 
                  PRESIDENT'S FISCAL YEAR 2011 BUDGET

                              ----------                              


                      THURSDAY, FEBRUARY 25, 2010


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:15 p.m. in room 
628, Dirksen Senate Office Building, Hon. Byron L. Dorgan, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. We are going to call the hearing to order. 
This is a hearing of the Indian Affairs Committee of the U.S. 
Senate. I appreciate all of you being here. We have a number of 
witnesses today at the hearing.
    Today we are going to examine the tribal programs and 
proposals in the President's Fiscal Year 2011 budget. The 
purpose is to gather information as we develop our views and 
our estimates letter that we would traditionally send to the 
Senate Budget Committee, and our views with respect to 
recommendations on appropriations.
    President Obama submitted the budget on February 1st. I am 
encouraged to see that in some areas, there are proposed 
increases for programs to address Indian health care and public 
safety issues. Let me say this Committee has fully documented 
and described at great length the longstanding unmet needs for 
increased funding in many areas of public policy dealing with 
American Indians. I am pleased that Mr. Perrelli and Dr. 
Roubideaux are here today to expand on the proposed increases 
for tribal health and in some areas for tribal justice.
    Having said that, let me explain also, I am very concerned 
about the budget in some areas, concerned about the proposal 
for cuts in construction programs for tribal schools, jails and 
housing. Throughout most of this decade, this Committee, 
working with the appropriators, had to fight against similar 
cuts to tribal construction programs. Fighting against deep 
cuts, we were able to maintain at least level funding for many 
of these programs. But in doing so, we have actually lost 
ground on the backlogs for schools and for jails and for 
housing.
    I understand that the Administration bases some of these 
cuts in part on the significant levels of funding delivered 
through the American Recovery and Reinvestment Act of 2009. But 
proposing cuts to these programs is not an answer, especially 
if it is connected to the money that we put in the stimulus or 
the economic Recovery Act. Those funds in the Recovery Act, 
while significant, didn't even come close to meeting the 
longstanding backlogs for construction and needs that exist in 
Indian Country. I pushed very, very hard for $2.5 billion of 
the funds, and my colleagues did as well, Senator Johnson and 
Senator Franken and many others, for $2.5 billion of funding in 
the Economic Recovery Act. That began to but didn't even touch 
filling the holes that we needed in these construction 
accounts.
    There are some things that people need just for purposes of 
living. And this Government has promised to provide those 
things to reservation communities. A home, basic shelter, safe 
place in which to learn, a community free of violence, these 
are pretty basic for people. For the past decade, many of these 
issues have been largely ignored. With respect to Indian 
schools, I have a chart that I wish to show. It shows the 
funding levels for Indian school construction from Fiscal Year 
1999 to 2009. And you can obviously see the disturbing trend 
downward.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The 2011 budget would continue that trend. It proposes $9 
million in cuts to school construction funding and $50 million 
lost in reprogramming. This cut is despite the fact there are 
60 schools on the Department's list of ``schools in poor 
condition'' and at this level of funding, it would take 30 
years to clear the backlog.
    Recent Inspector General reports on Indian schools say that 
the condition of many schools ``have the potential to seriously 
injure or kill students and faculty.'' A budget cut cannot 
possibly be our response to those findings.
    With respect to Indian jails, the Interior Department's 
budget proposes a $48 million cut to the jails construction 
account. This cut comes despite the fact that we have multiple 
Interior Department reports proclaiming that the BIA and the 
Indian jail system is a national disgrace. This is a 1,200-page 
Interior report declaring a multi-billion dollar backlog in 
jail and detention facilities for Indian Country. The report 
finds that ``the life and safety of officers and inmates are at 
risk.''
    I have a second chart that shows jail construction funding 
levels over the past decade. You will again see a dramatic 
decline in funding from earlier in the decade. The result of 
this crumbling jail system has an immediate impact on the 
tribal community. Tribal courts routinely release prisoners for 
lack of bed space. Violent offenders too routinely go 
unpunished. And with no deterrence, offenders increase the 
levels of their violence. We have held hearings in this 
Committee talking about reservations where there are five and 
ten times the rate of violent crime that exists in the rest of 
the Country. That means people living in those areas fear for 
their safety. And that is not a way to live.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    I understand that the Recovery Act provided, the 
Administration would say, $225 million for jails construction 
to help us catch up with the past cuts. The fact is, we are not 
even close to solving the problem. Not even close. And one more 
point, with respect to the Indian Housing Block Grant program, 
a $120 million cut I think is inappropriate. Again, the 
Economic Recovery Act provided housing funds. But again, there 
are serious unmet housing needs on Indian reservations. Ninety 
thousand families remain homeless or dramatically under-housed. 
One-third of Indian house are overcrowded compared to 5 percent 
nationally.
    We don't have a representative from the Department of 
Housing and Urban Development here today. Committee staff are 
contacting that Department to get answers about the housing 
cuts. But I know that Mr. Shuravloff from the Indian Housing 
Council is here to talk about the impacts those cuts will have 
on American lives.
    Let me make a final point. I understand the process of 
writing a budget requires making judgments about what is 
important and what isn't. In most committees, you will have 
people simply say, well, the areas where we are involved, these 
are important. This Committee says something different than 
that. This Committee says, in these areas, our Government 
signed treaties. In these areas, our Government made explicit 
promises. In these areas, our Government has a trust 
responsibility. So this is not some normal kind of 
appropriation or budget request. This is a question of whether 
the Government is going to keep its promise at long, long last. 
The sad fact is, for a long, long time, we have not kept the 
promises we have made.
    My hope is that 1 day soon, and perhaps beginning this day 
we will, but we won't with these recommended levels of 
expenditure. Let me again say that what is necessary to be done 
here is not a major, major addition to the Federal budget. It 
is in many ways asterisks that slide off the table on the 
amount of money that is paid contractors to do exactly what we 
are asking be done in this Country; that is, build roads and 
build schools and provide law enforcement, provide security. It 
is being done in other parts of the world with taxpayers' 
money. How about doing it here where it has been promised for 
decade after decade after decade, and the promise hasn't been 
kept?
    So as you can see, I have some differences here and there 
with what is happening. I am going to intend, as my colleagues 
will, I am sure, to push as hard as I can for fairness and for 
meeting the promises this Country has made.
    Let me call on my colleague, Senator Franken. We will call 
on them in order of arrival. Senator Franken?

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Mr. Chairman, for your words. I 
am glad to see that the Obama Administration is making Indian 
issues a higher priority than previous Administrations. But 
that is not saying so much. Let's face it: Indian affairs has 
never been a priority in the Federal budget. From Indian health 
to education and law enforcement, we have seen woefully 
inadequate funding across the board. This year, I am glad to 
see that the Bureau of Indian Affairs' budget has prioritized 
important provisions like contract support for tribal 
governments.
    But unfortunately, as the Chairman pointed out so 
graphically, it has come at the expense of the construction 
budget. Even accounting for the transfer of over $51 million 
from construction operations, there is an almost $9 million 
decrease in Indian school construction. Our office asked for a 
list of school construction projects. The most recent list we 
could get was from 2004. That is the most recent list we could 
get.
    And since 2004, we haven't even gotten through the list of 
14 schools that BIA identified as the worst of the worst and in 
need of replacement. We simply haven't made school construction 
a priority in the budget. The Chairman spoke to the condition 
of these schools, about the danger to life and limb to students 
and teachers.
    As a result of not making this a priority, we see schools 
like the Circle of Life School at White Earth Reservation in 
northwest Minnesota, we see that school, one of the 14 that was 
on that list, still waiting, still waiting. We have had enough 
money in the budget to finish only one or two schools every few 
years. How are we ever going to get to the $1.3 billion backlog 
just to bring Indian schools across the Country into acceptable 
condition?
    Last week I visited the Leech Lake Reservation in 
Minnesota, where the Bug-O-Nay-Ge-Shig School is. And it is one 
of 64 schools that are waiting for funding in this backlog. 
They have been waiting for years.
    The reality is that Indian schools and Indian issues in 
general just have not been a Federal funding priority. And 
though the Obama Administration has done more than those in the 
past, particularly the previous one, there is much, much more 
to do. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Johnson?

                STATEMENT OF HON. TIM JOHNSON, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. I associate my thoughts with the Chairman. 
And I am going to submit my statement for the record. I ask 
unanimous consent for that purpose.
    And especially welcome Dr. Roubideaux, who is head of the 
HIS and also a Rosebud Sioux member. Thank you.
    [The prepared statement of Senator Johnson follows:]

 Prepared Statement of Hon. Tim Johnson, U.S. Senator from South Dakota
    Good afternoon. Thank you, Mr. Chairman for holding this important 
hearing. I would also like to welcome back Dr. Roubideaux. It is always 
great to have a South Dakota perspective represented here. As you all 
know, some of the harshest conditions in Indian Country exist in my 
home state of South Dakota and across the Great Plains region, which I 
share with the Chairman. These already hard hit communities are most 
affected by budgets that we form here in Washington. Even slight 
increases or cuts in important tribal programs have significant impacts 
on the ability of tribes and tribal organizations to address the basic 
needs of their communities. I am pleased with the proposed increases 
for some programs in Fiscal Year 2011, including essential boosts in 
health care and public safety. I look forward to working with my 
colleagues on this committee to further strengthen the budget, 
particularly in the areas of education and housing. It is critical that 
we do all that we can to fulfill our treaty and trust responsibilities 
to Indian Country by providing sufficient funding and support.

    The Chairman. Senator Johnson, thank you very much.
    Senator Tester?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman. I think that you 
said it well in your opening remarks.
    I would just like to say, and I don't need to tell the 
folks in this room this, but the needs in Indian Country are 
great. The budget has to address those needs, whether it is 
housing or health care or schools or jails or whatever it may 
be. It really is up to you folks to get a budget that works.
    I will tell you, I have had a lot of frustration in the 
past when we have had budgets come before us and there hasn't 
been justification, there have just been numbers put on the 
page. I look forward through this discussion to make sure that 
the numbers match the need, because I think it is critically 
important in Indian Country where we have high unemployment and 
we have needs in all the things that have been mentioned here 
today, we have the opportunity really to put some folks to 
work, address unemployment, improve quality of life in Indian 
Country. I think that is what the budget should be revolving 
around.
    If we don't have people within the Administration that are 
willing to fight for the needs in Indian Country, it puts us at 
a serious disadvantage in addressing the problems that are 
occurring in Indian Country.
    With that, I want to thank you all for being here. I look 
forward to your testimony and I look forward to the questions 
that will come after your testimony. Thank you, Mr. Chairman.
    The Chairman. Senator Tester, thank you very much.
    The panel that is before us is including--I am sorry, 
Senator Udall. I did not see you come in.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you. Chairman Dorgan, thank you very 
much.
    I want to thank you for holding this hearing, and I would 
also like to associate myself with your remarks. I know that 
you have been an incredible advocate while you have been 
Chairman of this Committee for Indian Country and the programs 
that exist out there. I associate with those.
    I want to put my opening statement in the record and then 
just briefly say a few things. First of all, there are some 
very positive things, I think, in this budget. When I look at 
the IHS budget and contract services funding and contract 
support services, I think there is something positive there 
that we can build on.
    I am also pleased to see that the EPA requested a 2 percent 
set-aside for tribal drinking water State revolving fund, and 
the underlying Clean Water Act also includes a 5 percent set-
aside for tribes. So this is something I have been working on 
over in the Environment and Public Works Committee. The Justice 
Department has done the same with tribal governments, with a 7 
percent set-aside. So I want to see what this second panel has 
to say about this, and if the first panel has any reaction, 
too.
    The thing that concerns me the most are the cuts in school 
and detention center construction funding. We have had many 
witnesses come before this Committee that have said that we 
should have a Marshall plan when it comes to many of the 
projects in Indian Country. I agree with that, especially in 
the school construction and detention center construction 
funding. We need to have a multi-year plan. We need the 
Secretary and the president and the other officials that are 
here before us to get together and do everything they can to 
look at the long term. Whatever these backlogs are, the 
billions of dollars that are there, and specifically come up 
with a plan to wipe them out. Secretary Babbitt did it under 
the Clinton Administration. I think it is doable, even in the 
economic climate we are in with the Obama Administration. I 
look forward to hearing your comments.
    Thank you again, Chairman Dorgan, for all you have done and 
for holding this important hearing on the budget.
    [The prepared statement of Senator Udall follows:]

   Prepared Statement of Hon. Tom Udall, U.S. Senator from New Mexico
    I first want to thank Chairman Dorgan for holding this very 
important hearing, and each of the witnesses for coming to discuss the 
President's budget proposals for Indian Country.
    I look forward to hearing from the witnesses, but want to quickly 
highlight some of the things in the President's budget that I find very 
hopeful, and some of the things that I find concerning and merit 
further discussion with the two panels of witnesses.
    I am pleased to see the increases in the IHS budget, particularly 
in Contract Services Funding and Contract Support Costs. In this era of 
increased tribal sovereignty and self determination, Contract Support 
Costs are vital to bolstering sovereignty while ensuring that the 
federal government is fulfilling its trust responsibility.
    I am pleased to see that the EPA requested a 2 percent set-aside 
for tribe for the Drinking Water State revolving fund. The underlying 
Clean Water Act includes a 0.5 percent set-aside for tribes, and since 
2001 the appropriations bills have included a higher set-aside, 
generally 1.5 percent and I have been working in the EPW committee to 
try to codify the set-aside at a higher level. I believe everyone here 
is familiar with the disproportional need for domestic water 
infrastructure in Indian Country. I am pleased to see that the EPA has 
heard the message.
    I am also pleased to see that the Department of Justice has taken a 
new and innovative look at tribal justice programs by recommending a 7 
percent set-aside for tribal governments for programs within the Office 
of Justice Programs that are offered to state and local governments. I 
am eager to hear the reaction to this proposal from the second panel of 
witnesses.
    I am, however, concerned by the cuts in school and detention center 
construction funding. I have often promoted the concept of a ``Marshal 
Plan'' for Indian Country--a several year plan to remove the backlog of 
construction in Indian country, whether it be housing, hospitals, 
schools, or jails. I know it would be expensive, but I believe that the 
Secretary and the President could put together a plan to wipe out the 
backlog and clean the slate. The reductions in school and Indian jail 
construction in the President's budget appear to be a step in the wrong 
direction, but I look forward to hearing from the panels on this issue.
    Again, thank you Chairman Dorgan for holding this hearing, and 
thank you to the witnesses for your willingness to join us today. I am 
sure this will be a productive discussion of federal funding for Indian 
Country.

    The Chairman. Senator Udall, thank you very much.
    We are joined today by the Honorable Tom Perrelli, 
Associate Attorney General of the United States Department of 
Justice. Then we are also joined by the Honorable Yvette 
Roubideaux, the Director of the Indian Health Service, and the 
Honorable Larry Echo Hawk, Assistant Secretary of Indian 
Affairs. They have some people accompanying them. I will have 
them introduce those who are staffing them.
    Mr. Perrelli, why don't you proceed? The entire statements 
of the witnesses today will be included in the record, and we 
would ask the witnesses to summarize. You may proceed, Mr. 
Perrelli.

   STATEMENT OF HON. THOMAS J. PERRELLI, ASSOCIATE ATTORNEY 
              GENERAL, U.S. DEPARTMENT OF JUSTICE

    Mr. Perrelli. Thank you, Chairman Dorgan and members of the 
Committee. Thank you for the opportunity to testify today 
regarding the President's 2011 budget submission concerning the 
Department of Justice's public safety initiatives in tribal 
communities.
    As I discussed with the Committee when I have testified 
previously, the Department of Justice is deeply committed to 
working with tribal governments to improve public safety in 
Indian Country. While we continue to implement changes that 
don't require any new expenditures of tax dollars, the reality 
is that resources make a difference. In order to achieve 
lasting results, funding for public safety must be broad and 
across the board.
    We are working to put resources in place quickly and 
efficiently to help American Indian and Alaska Native 
communities help themselves. In total, the President's Fiscal 
Year 2011 budget includes $449 million in resources to assist 
Indian Country through DOJ. It includes funds that we would 
receive from the Department of Interior for 45 new FBI agents 
to support law enforcement efforts in Indian Country and 
maintains the increased number of assistant United States 
Attorneys in Indian Country that the Department will add in 
2010 as a result of the support of members of this Committee.
    I want to highlight the 54 percent increase in grant 
funding that the President has proposed for 2011. The 
President's approach to the Department of Justice's grant 
programs is significant, not just because of the size of the 
increase, but for the set-aside that the budget calls for in 
its implementation. It provides for a 7 percent set-aside, so 
essentially $42 million for hiring of tribal law enforcement 
personnel; and another 7 percent set-aside. So approximately 
$139.5 million for our Office of Justice Programs Indian 
Country efforts.
    It also includes a set-aside of $42.1 million for certain 
Office on Violence Against Women programs. These set-asides 
will make a critical difference for tribal communities 
attempting to address the serious challenges they face. 
Together with additional programs that are designed exclusively 
for tribal communities, they result in a total request of 
$255.6 million for DOJ grant programs in Indian Country, as I 
mentioned, a 54 percent increase.
    During the course of the Department's extensive 
consultations with tribal leaders over the last year, we have 
heard a strong desire for more flexible grant programs to meet 
tribal communities' needs more effectively and the need for a 
more streamlined grant-making process that will limit the 
burdens on tribes already in need of support. We recently 
rolled out a comprehensive tribal grant solicitation for Fiscal 
Year 2010, attempting to meet the requested need for a more 
streamlined process. We are looking toward the Fiscal Year 2011 
budget as an opportunity to implement a more flexible program 
that will directly address the requests we heard from tribal 
leaders.
    There are a number of other aspects of the President's 
budget worth noting. In particular, our support for permanent 
resources for the Office of Tribal Justice. I have talked about 
a number of other areas in my written testimony. I am happy to 
answer questions about those.
    As the Chairman said, and as the President has made clear, 
these are lean budget times. We agree with the Committee that 
we need to invest today in public safety in tribal communities, 
because the problems, as the Chairman said, are severe. 
American Indians and Alaska Native communities suffer from 
violent crime at far higher rates than other Americans. Some 
tribes have rates of crime two, four and sometimes ten times 
the national average, with violence against Native women and 
children being an extraordinary problem in many places.
    So we look forward to working with the Committee today and 
in the future on addressing these problems. I thank the 
Committee for its interest and support.
    [The prepared statement of Mr. Perrelli follows:]

   Prepared Statement of Hon. Thomas J. Perrelli, Associate Attorney 
                  General, U.S. Department of Justice
    Chairman Dorgan, Vice-Chairman Barrasso, and members of the 
Committee:
    Thank you for inviting me to testify today regarding the 
unprecedented support that the President's FY 2011 Budget provides to 
the Department of Justice for public safety initiatives in tribal 
communities. As I have previously discussed with the Committee, the 
Department of Justice is deeply committed to working with tribal 
governments to improve public safety in Indian Country. And while we 
will continue to implement changes that do not cost American tax 
dollars, the reality is that resources make a difference. In order to 
achieve lasting results, funding for public safety must be broad and 
across the board.
    We are working to put resources in place quickly and efficiently to 
help American Indian and Alaska Native communities help themselves. In 
total, the President's FY 2011 Budget includes $449 million in 
resources to assist Indian Country. It includes funds (provided by the 
Department of the Interior) for 45 new FBI agents to support law 
enforcement efforts in Indian Country, maintains the increased number 
of Assistant U.S. Attorneys in Indian Country that the Department will 
add in 2010 as a result of the support of members of this Committee, 
and increases grant funding in Indian Country by 54 percent. The 
President's FY 2011 Budget provides for a 7 percent set-aside--$42 
million--from the COPS Hiring Program to support the hiring of tribal 
law enforcement personnel, an additional 7 percent set-aside--$139.5 
million--from our Office of Justice Programs (OJP) for Indian Country 
efforts, and statutory set-asides totaling $42.1 million for certain 
Office on Violence Against Women programs. These set-asides, combined 
with numerous Department of Justice programs designed exclusively for 
tribal communities result in a total request of $255.6 million for 
Department of Justice grant programs in Indian Country.
    While the amount of funding is significant, so are our plans to 
distribute it. At our listening session in October, at the White House 
Tribal Nations Conference in November, and in subsequent meetings and 
discussions with tribal leaders, we have consistently heard a strong 
desire for more flexible grant programs to meet tribal communities' 
needs more effectively. We have been engaged in a consultation process 
for FY 2010 to streamline our grantmaking process, and the President's 
FY 2011 Budget will enable the Department to implement a large, 
flexible, program that directly addresses the requests of many tribal 
leaders.
    The President's Budget also supports the Department of Justice's 
extensive outreach efforts to educate tribal communities about its 
Radiation Exposure Compensation Program. The Department seeks 
additional funds for its Community Relations Service to expand efforts 
to resolve disputes in Indian Country arising from discrimination on 
the basis of race, color, and national origin. And as part of the 
Department's efforts to institutionalize its Office of Tribal Justice 
(OTJ) and better manage its Indian Country initiative, the Department 
is seeking additional staffing to support OTJ's expanding 
responsibilities.
    As the President has made clear, these are lean budget times. 
However, as this Committee knows, we must invest today to improve 
public safety in tribal communities. The problems in tribal communities 
are severe: American Indian and Alaska Native communities suffer from 
violent crime at far higher rates than other Americans. Some tribes 
have experienced rates of violent crime twice, four times, and in some 
cases over 10 times the national average; violence against Native women 
and children is a particular problem, with some counties facing murder 
rates against Native women well over 10 times the national average; and 
reservation-based and clinical research show very high rates of 
intimate-partner violence against American Indian and Alaska Native 
women.
    These problems will not be solved overnight, and money alone will 
not solve them. But money will enable FBI and other law enforcement 
agents to investigate crimes committed on Reservations. Money will help 
train prosecutors of violent crimes perpetrated against Indian women. 
Money will help us collect and analyze the data that will inform better 
public safety policies. And money will build capacity in tribal 
communities so that they can work with their federal partners on 
improving public safety.
    I thank the Committee for its interest in these critical issues and 
its support.

    The Chairman. Mr. Perrelli, thank you very much. We 
appreciate your being here.
    Next we will hear from Yvette Roubideaux, the Director of 
the Indian Health Service.

      STATEMENT OF HON. YVETTE ROUBIDEAUX, M.D., M.P.H., 
 DIRECTOR, INDIAN HEALTH SERVICE, U.S. DEPATMENT OF HEALTH AND 
 HUMAN SERVICES; ACCOMPANIED BY RANDY GRINNELL, DEPUTY DIRECTOR

    Dr. Roubideaux. Mr. Chairman and members of the Committee, 
good afternoon. My name is Dr. Yvette Roubideaux, and I am the 
Director of the Indian Health Service. I am accompanied by Mr. 
Randy Grinnell, the Deputy Director.
    I am pleased to have the opportunity to testify on the 
President's Fiscal Year 2011 budget request for the Indian 
Health Service. While the President's budget request for the 
entire Federal Government reflects the need to address fiscal 
discipline and Federal debt reduction, the IHS budget request 
reflects and continues President Obama's promise to honor 
treaty commitments made by the United States. In addition, the 
Fiscal Year 2011 budget request reflects Secretary Sebelius' 
priority to improve the IHS and represents the largest annual 
percent increase compared to other operating divisions within 
the Department of Health and Human Services.
    The Fiscal Year 2011 President's budget request and 
discretionary budget authority for the IHS is over $4.4 
billion, an increase of $354 million, or an 8.7 percent 
increase over Fiscal Year 2010. The request includes $175 
million in increases for pay costs, inflation and population 
growth that will cover the rising costs of providing health 
care to maintain the current level of services provided in IHS 
tribal and urban Indian programs. This amount also includes $38 
million to staff and operate newly constructed health 
facilities.
    The proposed budget also includes $178.5 million increase 
for a number of programs and initiatives that will increase 
access to care and strengthen the capacity of the Indian Health 
system to provide clinical and preventive care, and will help 
address longstanding unmet needs and inequities in funding 
levels within the Indian Health system. The budget request 
includes $44 million for the Indian Health Care Improvement 
Fund, which will allow some of our lowest-funded hospitals and 
health centers to expand health care services and reduce 
backlogs for primary care. The budget request also includes a 
$46 million increase in addition to a $37.4 million increase 
for pay, population growth and inflation for the contract 
health services program, of which an additional $5 million will 
be targeted to the Catastrophic Health Emergency Fund, or CHEF 
program.
    An additional $40 million are also included to fund the 
shortfall in contract support costs on top of increases in 
inflation for tribes that have assumed management of their 
health programs. For the facilities appropriation, the overall 
request is $445.2 million, which is an increase of $55.5 
million over the Fiscal Year 2010 funding level. With this 
increase, the total health care facilities construction budget 
is $66.2 million, which will allow for construction to continue 
on the replacement hospital in Barrow, Alaska, the San Carlos 
Health Center in Arizona, and the Kayenta Health Center on the 
Navajo Reservation.
    In addition to reflecting the President's and the 
Secretary's commitment to improving the quality of and access 
to care for American Indians and Alaska Natives served by IHS, 
this budget will also help continue progress on my priorities 
for how we are changing and improving the Indian Health 
Service. This budget renews and strengthens our partnership 
with tribes by aligning the agency's budget increases to 
reflect tribal priorities. I have carefully listened to tribal 
input over the past 9 months, and their priorities include more 
funding for IHS in general, as well as funding increases for 
current services, the Indian Health Care Improvement Fund, 
contract health services, and contract support costs. 
Therefore, this budget request includes its greatest increases 
in these areas.
    In addition, this budget helps to improve the quality of 
and access to care and addresses top tribal priorities such as 
chronic disease and behavioral health conditions. This budget 
also helps us continue to do our work to bring reform to the 
Indian Health Service. Over the past 9 months, I have gathered 
extensive input from tribes and our staff on priorities for how 
to change and improve the IHS. Their input reinforced the need 
to change and improve the IHS and for us to focus more on how 
we conduct the business of health care. We are working on 
improvements in the hiring process, recruitment and retention, 
performance management and more effective financial management 
and accountability. We have also made significant progress in 
developing an effective and accountable property management 
system. We are also working to enhance and make more secure our 
information technology systems to ensure the protection of 
patient care information and improve our administrative 
operations.
    All of these reforms are being conducted as we make all of 
our work more transparent, accountable, fair and inclusive. So 
in closing, this budget request is an investment and a 
commitment that will result in healthier American Indian and 
Alaska Native communities, and will advance the IHS' mission. 
Thank you for the opportunity to present the President's Fiscal 
Year 2011 budget request for the Indian Health Service.
    [The prepared statement of Dr. Roubideaux follows:]

 Prepared Statement of Hon. Yvette Roubideaux, M.D., M.P.H., Director, 
  Indian Health Service, U.S. Depatment of Health and Human Services; 
             accompanied by Randy Grinnell, Deputy Director
    Mr. Chairman and Members of the Committee:
    Good afternoon. I am Dr. Yvette Roubideaux, Director of the Indian 
Health Service. I am accompanied today by Mr. Randy Grinnell, Deputy 
Director. I am pleased to have the opportunity to testify on the 
President's FY 2011 budget request for the Indian Health Service (IHS).
    While the President's FY 2011 budget for the entire federal 
government reflects the need to address fiscal discipline and federal 
debt reduction, the IHS budget request reflects and continues President 
Obama's promise to honor treaty commitments made by the United States. 
In addition, the FY 2011 budget request reflects Secretary Sebelius' 
priority to improve the IHS, and represents the largest annual percent 
increase in discretionary budget authority, compared to other operating 
divisions within the Department of Health and Human Services.
    The FY 2011 President's budget request in discretionary budget 
authority for the IHS is over $4.4 billion, an increase of $354 
million, or 8.7 percent, over the final enacted FY 2010 Appropriation 
funding level. The request includes $175.6 million in increases for pay 
costs, inflation and population growth that will cover the rising costs 
of providing health care to maintain the current level of services 
provided in IHS, Tribal, and urban Indian programs. This amount also 
includes $38.8 million to staff and operate newly constructed health 
facilities, including some facilities completely constructed by Tribes 
as Joint Venture projects.
    The proposed budget also includes a $178.5 million increase for a 
number of programs and initiatives that will increase access to care, 
and strengthen the capacity of the Indian health system to provide 
clinical and preventive care, and will help address longstanding unmet 
needs and inequities in funding levels within the Indian health system. 
The budget request includes $44 million for the Indian Health Care 
Improvement Fund and will allow some of our lowest funded hospitals and 
health centers to expand health care services and reduce backlogs for 
primary care. The budget request also includes a $46 million increase, 
in addition to a $37.4 million increases for pay, population growth, 
and inflation, for the Contract Health Services program, of which an 
additional $5 million will be targeted to the Catastrophic Health 
Emergency Fund (CHEF), for a total funding level of $53 million for the 
CHEF. An additional $40 million are also included to fund the shortfall 
in Contract Support Costs (CSC) on top of increases for inflation for 
Tribes that have assumed the management of health programs previously 
managed by the Federal Government, bringing the total increase for CSC 
to $45.8 million from the FY 2010 enacted level. These increases 
represent some of the highest priorities for Tribes in the past several 
years.
    For the Facilities appropriation, the overall request is $445.2 
million, which is an increase of $55.5 million over the FY 2010 funding 
level. Within this increase, the total Health Care Facilities 
Construction budget is $66.2 million, which will allow for construction 
to continue on the replacement hospital in Barrow, Alaska, the San 
Carlos Health Center in Arizona, and the Kayenta Health Center on the 
Navajo Reservation.
    In addition to reflecting the President and Secretary's commitment 
to improve the quality of and access to care for American Indians and 
Alaska Natives served by the IHS, this budget will also help continue 
progress on my priorities for how we are changing and improving the 
IHS. My priorities are to renew and strengthen our partnership with 
Tribes; in the context of national health insurance reform, to bring 
reform to IHS; to improve the quality of and access to care; and to 
make all our work accountable, transparent, fair and inclusive.
    This budget renews and strengthens our partnership with Tribes by 
aligning the Agency's budget increases to reflect Tribal priorities. I 
have carefully listened to Tribal input over the past nine months, and 
their priorities include more funding for IHS in general, as well as 
funding increases for current services, the Indian Health Care 
Improvement Fund, Contract Health Services, and Contract Support Costs. 
Therefore, this budget request includes its greatest increases in these 
areas. In addition, this budget helps to improve the quality of and 
access to care and addresses top Tribal priorities such as chronic 
disease and behavioral health conditions.
    This budget helps us continue our work to bring reform to the IHS. 
Over the past nine months, I have gathered extensive input from Tribes 
and our staff on priorities for how to change and improve the IHS. 
Tribal priorities for reform focus on broad issues such as the need for 
more funding, the distribution of resources, and improving how we 
consult with Tribes. Staff priorities focused on how we do business and 
how we lead and manage people. Their input reinforced the need for 
change and improvement in the IHS and for us to focus more on how we 
conduct the business of health care. We are working on improvements in 
the hiring process, recruitment and retention, performance management, 
and more effective financial management and accountability. We have 
also made significant progress in developing an effective and 
accountable property management system. We are also working to enhance 
and make more secure our information technology systems to ensure the 
protection of patient care information and to improve our 
administrative operations. All of these reforms are being conducted as 
we make all our work more transparent, accountable, fair and inclusive.
    The FY 2011 budget proposal will provide resources to help the IHS 
further meet its mission. The IHS provides high quality, comprehensive 
primary care and public health services through a system of IHS, 
Tribal, and Urban operated facilities and programs based on treaties, 
judicial determinations, and acts of Congress. This Indian health 
system provides services to nearly 1.9 million American Indians and 
Alaska Natives through hospitals, health centers, and clinics located 
in 35 states, often representing the only source of health care for 
many American Indian and Alaska Native individuals, especially for 
those who live in the most remote and poverty stricken areas of the 
United States. The purchase of health care from private providers is 
also an integral component of the health system for services 
unavailable in IHS and Tribal facilities or, in some cases, in lieu of 
IHS or Tribal health care programs. In addition, unlike many other 
health delivery systems, the IHS is involved in the construction of 
health facilities, including the construction of quarters necessary for 
recruitment and retention of health care providers, as well as being 
involved in the construction of water and sewer systems for Indian 
communities. I know of no other health care organization that 
accomplishes such a wide array of patient care, public and community 
services within a single system.
    For several years since its inception in 1955 the IHS made 
significant strides in reducing early and preventable deaths from 
infectious or communicable diseases. However, deaths due to chronic 
diseases and behavioral health conditions have been more challenging to 
address since they result primarily from lifestyle choices and 
individual behaviors. In light of these challenges, there have been 
some recent accomplishments to note. For example, in FY 2009, the 
proportion of eligible patients who had appropriate colorectal cancer 
screening was 33 percent, an increase of four percentage points above 
the FY 2008 rate of 29 percent. Colorectal cancers are the third most 
common cancer in the United States, and are the third leading cause of 
cancer deaths. Colorectal cancer rates among the Alaska Native 
population are well above the national average and rates among American 
Indians are rising. Improving timely detection and treatment of 
colorectal cancer screening will reduce undue morbidity and mortality 
associated with this disease. In FY 2009, the proportion of women who 
are screened for domestic violence (DV) was 48 percent, an increase of 
6 percentage points above the FY 2008 rate of 42 percent. Screening has 
a significant impact because it helps identify women at risk for DV and 
refers these individuals for services aimed at reducing the prevalence 
and impact of domestic violence. The IHS achieved another notable 
accomplishment by exceeding the FY 2009 target for breastfeeding rates. 
The target was to maintain the proportion of infants 2 months old (45-
89 days old) that are exclusively or mostly breastfed at the FY 2008 
baseline result of 28 percent. The FY 2009 result was 33 percent and 
exceeded the target. There is evidence that breastfeeding contributes 
to lower rates of infectious disease, asthma, and Sudden Infant Death 
Syndrome, and is associated with lower childhood obesity rates.
    These results were achieved by our predominantly rural, highly 
decentralized federal, Tribal, and urban Indian health system, a system 
that provides health care services under a variety of challenges. With 
the budget proposed for FY 2011, as was the case with significant 
increases provided for in the FY 2010 budget, we anticipate seeing a 
positive impact in the daily lives of American Indian and Alaska Native 
people and progress towards improving the health status of the 
communities we serve.
    In closing, the President's FY 2011 budget request for the IHS is 
an investment and a commitment that will result in healthier American 
Indian and Alaska Native communities and will advance the IHS mission 
to raise the physical, mental, social, and spiritual health status of 
American Indians and Alaska Natives to the highest level.
    Thank you for this opportunity to present the President's FY 2011 
budget request for the Indian Health Service.

    The Chairman. Thank you very much, Dr. Roubideaux.
    Next we will hear from Assistant Secretary Larry Echo Hawk.

         STATEMENT OF HON. LARRY ECHO HAWK, ASSISTANT 
         SECRETARY FOR INDIAN AFFAIRS, U.S. DEPARTMENT 
        OF THE INTERIOR; ACCOMPANIED BY: JERRY GIDNER, 
          DIRECTOR, BUREAU OF INDIAN AFFAIRS AND BART 
          STEVENS, ACTING DIRECTOR, BUREAU OF INDIAN 
                           EDUCATION

    Mr. Echo Hawk. Mr. Chairman and members of the Committee, 
first of all, thank you for your strong statements in support 
of Indian Affairs. I appreciate this opportunity to provide the 
Department of Interior's statement on the President's 2011 
budget request for Indian Affairs.
    As the Assistant Secretary for Indian Affairs, I oversee 
the Office of the Assistant Secretary and also the Bureau of 
Indian Affairs and the Bureau of Indian Education. I have with 
me today seated at the table Jerry Gidner, the Director of the 
Bureau of Indian Affairs, and Bart Stevens, the Acting Director 
of the Bureau of Indian Education.
    The President has requested $2,556,000,000 for Indian 
Affairs at the Department of the Interior. Through the work of 
the Tribal Budget Advisory Council, this budget has been 
crafted after careful consultation with American Indian and 
Alaska Native government representatives. The President called 
upon members of his Administration to meet important objectives 
while exercising fiscal responsibility.
    Consistent with that directive, we had to make difficult 
choices in formulating this budget request for Indian Affairs. 
The Fiscal Year 2011 request is $53.6 million below the Fiscal 
Year 2010 enacted budget level.
    However, excluding the one-time increase in 2010 for 
forward funding tribal colleges and universities and efficiency 
reductions, the 2011 budget is level with the 2010 budget. And 
if you compare that to the 2009 appropriation, it is an 8 
percent increase.
    The $2.6 billion budget of the President focuses on 
priority areas in Indian Country. I am sure the Committee is 
well aware of the particulars. But just to highlight, as a part 
of the President's Empowering Tribal Nations initiative, under 
the category of advancing nation to nation relationships, there 
is a $29.9 million increase. And this has a sizable increase of 
$21.5 million for contract support and also $3 million for 
small and needy tribes.
    Under the category of protecting Indian Country, there is a 
$20 million increase aimed at generating more Federal law 
enforcement within the bounds of Indian Country and also 
providing the maintenance and operation of newly constructed 
detention facilities under the Department of Justice. Under the 
category of advancing Indian education, we have increased $8.9 
million. That addresses school safety concerns to the level of 
about $5.9 million as well as tribal grant support at $3 
million.
    The next category, improving trust land management, has an 
increase of $11.8 million. We focus on energy, both 
conventional and renewable, climate change adaptation, and also 
water rights protection.
    So in sum, that budget request is more than $70 million in 
program increases that will strengthen tribal management over 
federally funded programs and enhance education, public safety, 
energy and trust land and resource programs. This budget will 
serve over 1.7 million American Indians and Alaska Natives. I 
point out that almost 90 percent of all appropriations are to 
be expended at the local level. Of that 90 percent, over 62 
percent of the appropriations are provided directly to tribes.
    I know that there are extremely great needs in Indian 
Country. But I believe President Obama's Administration has 
faithfully sought to meet those needs.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Echo Hawk follows:]

  Prepared Statement of Hon. Larry Echo Hawk, Assistant Secretary for 
            Indian Affairs, U.S. Department of the Interior
    Good afternoon Mr. Chairman, Vice Chairman, and members of the 
Committee. Thank you for the opportunity to provide the Department of 
the Interior's (Department) statement on the fiscal year (FY) 2011 
President's Budget request that was released on February 1, 2010 for 
Indian programs. The FY 2011 budget request for Indian Affairs programs 
within the Department totals $2.6 billion. This reflects a decrease of 
$3.6 million from the 2010 enacted level, excluding the $50.0 million 
in one-time funding to forward-fund tribal colleges in 2010. The budget 
focuses on priority areas in Indian Country and honors the Federal 
Government's obligation to federally recognized American Indian and 
Alaska Native governments in an informed and focused manner.
    As the Assistant Secretary for Indian Affairs, I have the 
responsibility to oversee the numerous programs within the Bureau of 
Indian Affairs (BIA) and the Bureau of Indian Education (BIE), along 
with other programs within the immediate office of the Assistant 
Secretary for Indian Affairs. The Office of Indian Affairs' BIA and BIE 
programs expend over 90 percent of appropriations at the local level. 
Of this amount, at least 62 percent of the appropriations are provided 
directly to tribes and tribal organizations through grants, contracts, 
and compacts for tribes to operate government programs and schools. 
Indian Affairs' programs serve the more than 1.7 million American 
Indian and Alaska Natives located on or near reservations.
    The Office of Indian Affairs 2011 budget request provides funding 
for three of the Department's 2011 priority initiatives: the Empowering 
Tribal Nations initiative; the New Energy Frontier initiative; and the 
Climate Change Adaptation initiative.
Empowering Tribal Nations
    The Empowering Tribal Nations initiative is a multi-faceted effort 
that will advance Nation-to-Nation relationships, improve Indian 
education, protect Indian communities and reform trust land management, 
with the ultimate goal of greater self-determination. This initiative 
actually began before this budget request when then candidate for 
President, and now President Obama, promised that a new era of change 
would include direct dialogue between Tribal Nations and this 
Administration. This promise, followed up by action, came to fruition 
in November 2009, when the White House held the Tribal Nations' 
Conference at the Department's Yates Auditorium, with over 400 Tribal 
leaders in attendance.
Nation-to-Nation Relationship
    This Administration believes that investing in Indian Country is 
the key to advancing our Nation-to-Nation relationship, and therefore 
seeks $29.9 million in programmatic increases for contract support, 
self determination contract specialists, social workers, support for 
small tribal governments, and the final year of the Washington 
Shellfish settlement. At the forefront of this investment is contract 
support, which was identified by many Tribal Nations as their top 
priority. The increase in contract support will allow the BIA to pay 
approximately 94 percent of the identified need for contract support 
costs in FY 2011.
    Funding contract support costs encourages tribal contracting and 
supports Indian self-determination. Contract support funds are used by 
tribes that manage Federal programs to pay a wide range of 
administrative and management costs, including finance, personnel, 
maintenance, insurance, utilities, audits, communications, and vehicle 
costs.
    The requested 2011 increases will also allow the BIA to fund Self-
Determination Specialist positions to ensure proper contract oversight. 
In addition, it will allow the BIA to add more Social Workers to assist 
tribal communities in addressing problems associated with high 
unemployment and substance abuse. We also plan for $3.0 million of this 
request to go toward support for small Tribes (those with a population 
of less than 1,700) in order to improve the effectiveness of their 
tribal governments.
Protecting Indian Country
    For the past several years, Tribal Nations have consistently 
identified that increased public safety in Indian Country is one of 
their top priorities. The BIA has a service population of over 1.7 
million American Indians and Alaska Natives who belong to 564 federally 
recognized tribes. The BIA supports 191 law enforcement programs with 
42 BIA-operated programs and 149 tribally-operated programs. 
Approximately 78 percent of the total BIA Office of Justice Services 
(OJS) programs are outsourced to Tribes.
    President Obama, Secretary Salazar and I have heard from Indian 
Country that increased public safety is a top priority. The FY 2011 
budget request seeks an additional $20 million in public safety funding 
over the FY 2010 enacted levels. This additional funding will support 
the Department's ``Protecting Indian Country'' initiative, which will 
fund new law enforcement agents and provide funding for detention 
center operations in Indian Country.
    This budget reflects this commitment to public safety in Indian 
Country by collaborating with the Department of Justice for additional 
FBI agents dedicated to protecting Indian lands. Of this increase, 
$19.0 million will be provided via reimbursement by BIA to DOJ to fund 
additional FBI agents. The FBI has primary jurisdiction over major 
crimes on more than 200 reservations with approximately 105 agents 
available to investigate crimes that occur in Indian Country. The 
reimbursable funding provided to the FBI will add 45 agents as well as 
other personnel, assuring that the resources will be spent in Indian 
Country and focused on high-priority areas like drug trafficking and 
the violence related to it. The budget also proposes an increase of 
$1.0 million for detention center operations and maintenance for new 
facilities built with DOJ grants.
Advancing Indian Education
    The BIE is one of only two agencies in the federal government that 
manages a school system, the other being the Department of Defense. 
Education is critical to ensuring a viable and prosperous future for 
tribal communities and American Indians. One of our top priorities is 
to improve Indian education and provide quality educational 
opportunities for those students who walk the hallways of the 183 BIE 
funded elementary and secondary schools and dormitories located on 63 
reservations in 23 states and serving approximately 42,000 students.
    The 2011 request maintains the Department's ongoing commitment to 
improve Indian education for students in bureau-funded schools and 
tribally controlled colleges. The budget sustains 2010 funding levels 
for many programs, and provides an increase of $8.9 million for key 
programs. The budget request includes an increase of $5.9 million to 
promote safe and secure schools. Of this increase, $3.9 million will be 
used to implement safety and security programs at 10 schools to 
mitigate security issues identified by the Inspector General in the 
past year, and to train staff to deal effectively with high risk 
student behaviors. The remaining $2.0 million will provide funds for 13 
full-time environmental professionals to conduct environmental audits 
at BIE schools.
    Another component of BIE funding is Tribal Grant Support Costs, 
which cover administrative and indirect costs at 124 tribally 
controlled schools and residential facilities. Tribes operating BIE-
funded schools under contract or grant authorization use these funds to 
pay for the administrative overhead necessary to operate a school, meet 
legal requirements, and carry out other support functions that would 
otherwise be provided by the BIE school system. The budget increases 
funding for these activities by $3.0 million.
    I should note again that we were successful in our effort to 
forward-fund tribal colleges in 2010, so that one-time funding of $50 
million is not needed in 2011.
Improving Trust Land Management
    In addition to the human services components of Indian Affairs, the 
United States holds 55 million surface acres of land and 57 million 
acres of subsurface mineral estates in trust for tribes and individual 
Indians.
    This Administration seeks to advance the Empowering Tribal Nations 
initiative by assisting Tribes in the management, development and 
protection of Indian trust land, as well as natural resources on those 
lands. The 2011 budget request includes $9.1 million in programmatic 
increases for land management, improvements, water management, 
cadastral surveys and dam safety.
    Within these proposed increases for FY 2011, the BIA seeks to 
promote development within the former Bennett Freeze area in Arizona 
with $1.2 million. There are more than 12,000 Navajo people living in 
this area, which was subjected to restrictions on development over a 
40-year period involving a land dispute between the Navajo Tribe and 
Hopi Tribe. Additionally, the requested increases will go toward 
meeting the requirements of the Nez Perce/Snake River water rights 
settlement and will also go toward the probate program in BIA.
New Energy Frontier
    Indian Affairs works closely with tribes to assist them with the 
exploration and development of tribal lands with active and potential 
energy resources. These lands have the potential for both conventional 
and renewable energy resource development. The 2011 budget includes an 
increase of $2.5 million in Indian Affairs for energy projects as part 
of the Department's New Energy Frontier initiative.
    This increase includes $1.0 million in the Minerals and Mining 
program to provide grants directly to Tribes for projects to evaluate 
and develop energy resources on tribal trust land. The budget also 
contains a $1.0 million increase for conventional energy development on 
the Fort Berthold Reservation. To further expedite energy development 
on the Fort Berthold Reservation, Indian Affairs, the Bureau of Land 
Management, Minerals Management Service, and the Office of the Special 
Trustee for American Indians will create a ``virtual'' one-stop shop. 
The budget includes a $500,000 increase to support staff onsite, as 
well as provide on-call access to the full range of the Department's 
operational and financial management services.
Climate Change Adaptation
    The budget also includes $200,000 as part of the Department's 
Climate Change Adaptation initiative. This funding will support BIA and 
tribal collaboration with the Department's Landscape Conservation 
Cooperatives (LCC), providing tribal input and perspective to climate 
adaptation issues in the form of traditional ecological knowledge. 
Indian Affairs will suggest strategies to address adaptation and 
mitigation for climate change on Indian lands when working with the 
LCCs. Both Indian Affairs' staff and local tribal members will be 
involved with the LCCs.
Cobell Settlement
    I was recused from participating in discussions about Cobell v. 
Salazar, a case involving the management of individual Indian trust 
accounts related to Indian lands, but I am pleased to report that the 
budget also takes into account the settlement agreement in the case. 
Pending Congressional action and final approval by the Court, $3.412 
billion will be expended from the Judgment Fund in 2010, including 
payments made to settle individual claims. Also within this total, the 
settlement agreement provides that $2.0 billion will be transferred to 
a Trust Land Consolidation Fund to be administered by the Department of 
the Interior for the buy-back and consolidation of fractionated land 
interests.
Requested Decreases
    The initiatives described above, and the related increases in the 
Administration's request, mark a significant step toward the 
advancement of the federal government's relationship with Tribal 
Nations. These initiatives focus on those programs geared toward 
empowering Tribal Nations, and reflect the President's priorities to 
support economic development in Indian Country.
    The President has also called upon members of his Administration to 
meet important objectives while also exercising fiscal responsibility. 
Consistent with that directive, we made several difficult choices in 
the FY 2011 appropriations request for Indian Affairs.
    The construction program contains program reductions of $51.6 
million. The request takes into consideration the $285.0 million that 
was provided to Indian Affairs for school and detention center 
construction activities and $225.0 million provided to the Department 
of Justice for detention center construction under the American 
Recovery and Reinvestment Act. With funding from the Recovery Act, 
Indian Affairs will complete a number of high-priority projects. The 
request also reflects a proposed transfer of some maintenance funding 
from the construction account to the operations account.
    The amount requested for construction includes: $52.9 million for 
Education, $11.4 million for Public Safety and Justice, $42.2 million 
for Resource Management, and $9.3 million for other program 
construction. An increase of $3.8 million for the Safety of Dams 
program is also included. At $52.9 million, the Education Construction 
budget will fund phase two of the Denehotso replacement school, one 
school facility replacement project, and support employee housing. The 
budget maintains essential funding for facility improvement and repair 
projects at $34.6 million. The Public Safety and Justice Construction 
program is funded at $11.4 million to support employee housing and 
facilities improvement and repairs at detention centers.
Conclusion
    The 2011 budget for Indian Affairs achieves the President's 
objectives of restoring fiscal discipline, helping empower tribal 
nations and foster responsible development of tribal energy resources 
and improving the Nation-to-Nation relationship between tribal nations 
and the United States. The pool of federal resources is not unlimited, 
and we heeded the President's call to act responsibly to maximize our 
impact while limiting spending growth.
    Mr. Chairman, members of the Committee, thank you for the 
opportunity to appear before you today. I am happy to answer any 
questions you may have.

    The Chairman. Mr. Echo Hawk, thank you very much.
    I am going to reserve my questions, I will question at the 
end of the panel. I will begin with Senator Franken.
    Senator Franken. Thank you, Mr. Chairman. I thank all of 
you.
    Beyond the lack of funding for school construction, there 
is a transparency issue. BIA has a metric called the Facilities 
Construction Index, or FCI, that it uses to assess the 
condition of each particular school on its school construction 
list. As a Senator, when I asked for a list of schools with the 
FCI for each school, I get it. But the tribe and the general 
public don't get to see the list with the FCI.
    Now, I understand that there is a No Child Left Behind 
rulemaking process to come up with a way to prioritize in 
Indian schools for construction. I am glad that is moving 
forward in this Administration. But that process is going to 
take at least another year.
    In the meantime, the public needs to know the dismal 
conditions these schools are in. Only when people know what is 
happening will there be an impetus to make school construction 
a priority in the budget. Secretary Echo Hawk, while we are 
waiting for the NCLB rulemaking process, is BIA willing to post 
online the full list of 64 Indian schools in need of 
replacement or repair with the FCI for each?
    Mr. Echo Hawk. Thank you, Senator Franken. I believe in 
transparency, the school replacement construction priority list 
formulated in 2004 is now being reviewed in that negotiating 
rulemaking committee. And that is a transparent process. I 
think there is one other list, known as poor condition. It is 
not a priority list. It is a list that has been generated to 
identify just what the needs are.
    Senator Franken. Will you publish that list with the FCI of 
each?
    Mr. Echo Hawk. Senator Franken, that list is on the Bureau 
of Indian Affairs website.
    Senator Franken. It is not on with the FCI.
    Mr. Echo Hawk. Senator Franken, staff tells me that it is.
    Senator Franken. OK. I am told something different by my 
staff. This isn't the first time that I have been told 
something in these hearings about this list and about these 
lists that wasn't true.
    Mr. Echo Hawk. Senator Franken, staff has told me that it 
was actually published yesterday.
    [Laughter.]
    Senator Franken. OK. Well, my office was asking about this 
list. And now I kind of understand how that might have 
happened.
    I want to address the issue of costs. The Director of 
Facilities, Environmental and Cultural Resources for Indian 
Affairs at the Department of the Interior told my staff that it 
costs approximately $30 billion to $50 billion to replace a BIA 
school. There is only $52.8 million in the President's budget 
for Indian school construction for the entire year. So we have 
this enormous cost per school and barely any money to fund it.
    Is the cost of replacing a BIA school comparable to the 
cost associated with schools in non-tribal areas? And if there 
is a difference, what accounts for it? Do you want to get back 
to me with a written answer.
    Mr. Echo Hawk. Senator Franken, I have staff in the room 
that could answer that question in detail. We would be happy to 
communicate directly with your staff.
    Senator Franken. I am running out of time. I want to get to 
one last thing. This is about BIA detention facilities that are 
operations funding. Last week I was at the Red Lake 
Reservation, in addition to being at Leech Lake in northern 
Minnesota. I saw their new juvenile detention, minimum security 
facility, which was built 5 years ago. It is absolutely 
beautiful. It sat empty, though, for the last 5 years, because 
the BIA has not provided funding for operations.
    This facility was built with Department of Justice funding 
under President Clinton's Indian Country Law Enforcement 
initiative back in 1998. Is it true that under that initiative, 
the policy was that the Department of Justice would fund 
construction of detention facilities and the Department of the 
Interior agreed to seek funding for operating these facilities 
going forward? I have a copy of a letter from 1998 from then-
Assistant Secretary of Indian Affairs Kevin Gover, assuring 
tribal governments that the BIA Office of Law Enforcement 
Services would be responsible for requesting operational 
funding for each detention facility constructed by DOJ under 
the program. I also have a Department of the Interior memo from 
2000 clearly saying that, ``The Office of Law Enforcement 
Services will be responsible for requesting funds for staffing 
and program operations at these facilities'' I ask unanimous 
consent to submit both of these documents for the record, Mr. 
Chairman.
    The Chairman. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Senator Franken. Does the policy laid out under the Clinton 
Administration's Indian Country law enforcement initiative 
remain the policy of the Bureau of Indian Affairs today, sir?
    Mr. Echo Hawk. Mr. Chairman and Senator Franken, I 
acknowledge that is the policy.
    Senator Franken. Then we have a facility that was built 
under that policy that has remained empty for 5 years because 
there is no money to operate it at all.
    Thank you, Mr. Chairman.
    The Chairman. Senator Franken, thank you very much.
    Senator Johnson?
    Senator Johnson. Thank you, Mr. Chairman.
    I am grateful to Mr. Echo Hawk. I am very grateful for the 
stimulus funding that is benefiting reservations in my State of 
South Dakota. While these funds are essential to all of Indian 
Country, they are only a start and certainly do not make up for 
years of chronic under-funding.
    I am concerned that stimulus moneys have triggered cuts in 
Fiscal Year 2011 funding, particularly for school construction 
and housing. Given the significant cuts, does the 
Administration have a plan to continue the progress made with 
stimulus funding?
    Mr. Echo Hawk. Mr. Chairman and Senator Johnson, the 
overall budget for Indian Affairs I think does take into 
account that we received $285 million in stimulus for 
construction. And in the process of making hard choices about 
how to craft this budget to be fiscally responsible, I think 
that we did look at that fact. As I told this Committee during 
my confirmation hearing, I intended to learn what the needs 
were in Indian Country and to be a forceful advocate for Indian 
Country and trying to build the budgets that would bring 
lasting change into communities. I can only commit that we will 
aggressively pursue plans to meet the needs out there in Indian 
Country for construction of schools and law enforcement and 
detention facilities.
    Senator Johnson. Mr. Perrelli, while I am grateful for the 
increase in the COPS program, I am concerned about the cuts in 
tribal courts, tribal youth, jail construction, alcohol and 
substance abuse and civil and criminal assistance. Are there 
going to be cuts in personnel from the tribal court system?
    Mr. Perrelli. Thank you for the question, Senator. With 
respect to the tribal programs in the Office of Justice 
Programs to which you are referring, rather than seeking a 
separate appropriation for each of those line items, we are 
seeking a 7 percent set-aside for tribal programs for those 
purposes out of all the Office of Justice Programs funds. The 
result is rather than seeking, as was sought in Fiscal Year 
2010, $75 million in the tribal courts detention facility 
categories, we are seeking over $140 million overall.
    So I don't think it is actually a cut. As I indicated, we 
are seeking a significant increase. And we are planning to work 
with this Committee and with the Appropriations Committee on 
developing the most flexible way that tribes can use those 
funds.
    Certainly when we have gone through our listening sessions 
with tribal leaders, what we have heard is frustration at times 
about the inability to use funds for their actual needs. The 
detention facility situation is an example where there are 
tribes who have said to us, we would like to build a justice 
center, but the statute in the detention facility grant program 
only allows you to build the jail portion and not something 
else. That is something that the tribal law bill I think has 
done, made some efforts to seek to address.
    So we are actually seeking more funds. But we are seeking 
more flexibility for tribal governments as well.
    Senator Johnson. Are you telling me that tribal courts 
appears in the Office of Justice Programs?
    Mr. Perrelli. I am sorry, sir?
    Senator Johnson. Tribal courts, the line item for tribal 
courts, appears in the Office of Justice Programs?
    Mr. Perrelli. Yes, it does.
    Senator Johnson. What other programs are there in the 
Office of Justice programs?
    Mr. Perrelli. That is primarily tribal courts, alcohol and 
substance abuse, training and technical assistance for civil 
and criminal legal assistance, and tribal construction. Those 
are areas where in Fiscal Year 2010 we sought $75 million. Here 
we are seeking again a set-aside, out of all the Office of 
Justice Programs programs, which is a broader set of programs, 
of 7 percent specifically for tribal governments. And as I 
indicated, the hope is to develop the most flexible program 
that would allow funds appropriately to be used, whether it is 
for construction, tribal courts and other areas.
    Senator Johnson. Is there funding for, Dr. Roubideaux, is 
there funding for the Cheyenne River and Sisseton-Wapeton 
hospitals?
    Dr. Roubideaux. Yes. The Cheyenne River Hospital is being 
built with Recovery Act funds, as you are aware. We also 
included in this budget the proposal the first month's worth of 
staffing for that hospital in the current services line.
    I had the opportunity to visit that hospital a few months 
ago. It was beautiful, and the construction is really 
progressing very well on it. It is just a great example of how 
health care facilities are so important for our communities. 
They represent their hopes and dreams for better health care. 
So we are doing what we can to finish that facility on time and 
make sure it gets the staff it needs.
    Senator Johnson. Do you view the combined VA IHS facility 
in Wagner, South Dakota, for what could happen in terms of 
cooperation in the future?
    Dr. Roubideaux. Yes. I think that is an excellent example.
    Senator Johnson. I have no more questions.
    The Chairman. Senator Johnson, thank you very much.
    Senator Tester?
    Senator Tester. Thank you, Mr. Chairman. I will go back to 
Mr. Perrelli for a bit here.
    I want to kind of follow up on some of Senator Johnson's 
questions. On the $75 million cut, you said there was a 7 
percent set-aside, so really it is a $140 million program now. 
Where are those funds set aside from?
    Mr. Perrelli. They are set aside from the broader universe 
of the Office of Justice Programs.
    Senator Tester. How much was that broader universe 
increased, or was it increased in the budget?
    Mr. Perrelli. That went down in the budget. So Fiscal Year 
2010, our State and local assistance, it was $2.98 million, 
Fiscal Year 2010 enacted. Our Fiscal Year 2011 request for the 
Office of Justice Programs is $2.87 million.
    Senator Tester. And then you are going to pull another $1.4 
million off of that, or $2.87 billion, so you are going to pull 
another $140 million out?
    Mr. Perrelli. The $140 million of that will be set aside 
for other projects.
    Senator Tester. And then the program is going to be 
reduced, and I assume you looked at it through a sharp pencil. 
And then it is going to be reduced again with this set-aside.
    Mr. Perrelli. No. The program, the moneys are not going to 
be reduced from the set-aside. In other words, in Fiscal Year 
2010, the programs that were specifically for tribal 
communities totaled, out of that $2.98 billion, roughly $75 
million. In Fiscal Year 2011, we are seeking $140 million, a 
significant increase in programs that are set aside for tribal 
governments. But rather than seeking the funds in the tribal 
court line item, the tribal construction line item, we are 
seeking that $140 million in a single block.
    Senator Tester. I understand that. And maybe I am not 
tracking you. But it seems to me that if you are setting money 
from a budget that is being reduced some, then you are setting 
some more money aside that wasn't set aside in the previous 
fiscal year, that means that money can't be used in what it was 
used for in the previous fiscal year, it is being used for 
these programs.
    Mr. Perrelli. The budget was principally reduced by 
elimination of earmarks. But if the question is, does setting 
aside money for tribal communities mean there is less money for 
State and local law enforcement and other communities, that is 
correct.
    Senator Tester. OK. And then we have a way to deal with 
that issue, too, outside Indian Country?
    Mr. Perrelli. I think that what was principally reduced was 
elimination of earmarks.
    Senator Tester. Another couple of questions. And I assume 
from the answers to Senator Johnson's questions, you are doing 
this for flexibility reasons, so tribes have greater 
flexibility?
    Mr. Perrelli. That is correct.
    Senator Tester. Will the tribes determine how the money is 
going to be allocated, then?
    Mr. Perrelli. I think we are still developing the program, 
and we are going to continue to consult with tribal governments 
and hopefully work with this Committee and the appropriators 
about how that will work. But I think the primary request we 
got from tribal leaders was a grant program that would allow 
them to more flexibly address their particular needs.
    Senator Tester. OK. Mr. Echo Hawk, I was going to ask Mr. 
Perrelli this question, but I will just depend on your answer. 
We give the BIA an extra $19 million so they can reimburse 
Justice. Why not just give the money to Justice? Why not just 
give them the $19 million instead of giving it to you and you 
give it to them?
    Mr. Echo Hawk. Mr. Chairman, Senator Tester, I think the 
idea there is that if it is in the Indian Affairs budget, we 
have some control to make sure it actually goes to Indian 
Country. We have been working very closely, collaborating with 
the Department of Justice. I think we can assure you that that 
money will end up where it is intended.
    Senator Tester. Otherwise, you are concerned that it 
wouldn't, if we just cut Mr. Perrelli a $19 million check. Is 
that correct?
    [Laughter.]
    Mr. Echo Hawk. Mr. Chairman and Senator Tester, I think I 
commented, we have a good working relationship.
    Senator Tester. I don't want to put you on the spot too 
much.
    All right. Ms. Roubideaux, you were in Billings last week. 
Unfortunately, I didn't know about the visit. It is not so bad 
if I wasn't on Indian Affairs, but I am on Indian Affairs. 
Consequently, it would have been good to know, not from a 
perspective of me being able to welcome you, which I would 
have, but from a standpoint of us having to scramble to get 
staff there, because we didn't know about it.
    That being said, I hope next time you are in town, we know 
about it. Because we like you, and we would like to be a part 
of what you are doing. It would help me on this Committee if we 
know about it.
    I guess the question I have is, you talked about 
priorities, listing of priorities for the last 9 months. Can 
you tell me what priorities you heard from the tribes in that 
meeting?
    Dr. Roubideaux. Well, I thought I was going to see you 
there. I had heard that we had notified your staff, and I 
actually asked when I got there, when is Senator Tester 
arriving. So I am disappointed as well, so we will work on the 
communication.
    Senator Tester. Absolutely.
    Dr. Roubideaux. I had a wonderful time visiting the 
Billings area. It is a part of my effort to now spread my 
priorities into all 12 areas. I visited two areas so far, so 
you were the second on the list. I had a great time talking 
with the tribal leaders there. They are very concerned about 
the health of their people, as you know. And they have many 
concerns. Chief among them is the lack of funding for Indian 
health. They told me loudly and clearly that we needed more. 
They also told us that they wanted us to improve how we do 
business in a number of areas, including our contract health 
services program. And we are working on improving the way we do 
business. I just initiated formal tribal consultation in that 
area and was going to have a meeting on best practices and an 
input session during the snowstorm.
    I am actually appointing two tribal officials from each 
area to come on a work group to help look at how we can improve 
that program. The other issue was customer service. That is the 
last one I will mention. We still have some problems with 
customer service in our agency and I have made it clear that it 
is a priority of mine, that we need to treat our patients with 
respect and dignity. And we will be working very hard on this, 
including in our performance management process over the next 
few years.
    Senator Tester. And I assume that you have heard these 
comments in other places around Indian Country. Does this 
budget deal with the lack of funding for Indian health care in 
a way that will address those problems? Does it deal with 
contract health services in a way that will address those 
problems? And do you have a plan for addressing the customer 
service aspects from a respect and dignity standpoint?
    Dr. Roubideaux. Yes. I am grateful to the President for 
this budget, because I think it is a great next step in our 
ability to address these issues. In terms of contract health 
services, we have a lot of work to do to improve the way we do 
business, how we educate our patients, how we work with our 
referral partners and how we do our billing practices. All of 
those are things that we are working on right now.
    Customer service, the first step was for me as the Director 
to say that it was important. I got a great deal of thanks from 
our patients and our staff for doing that. That is what strong 
leadership is about, is first helping people understand what 
the priorities are. And now we are actually going to put this 
in our performance management system, so that we will be able 
to rate our employees on their customer service. I have not 
announced it yet, but I am going to ask our patients to help 
teach our providers and our staff how to do well on customer 
service. I think it is incredibly important.
    And the last thing is, I am going to try to find ways to 
reward our employees who provide good customer service in a 
better way.
    Senator Tester. Thank you. And thank you, Mr. Chairman. I 
apologize for running over.
    The Chairman. Senator Tester, thank you very much.
    Senator Udall?
    Senator Udall. Thank you, Chairman Dorgan. Secretary Echo 
Hawk, could you address the President's cut in funding for the 
construction of schools? I understand that a portion of the 
funding is simply being transferred between accounts, but that 
there is still a reduction in funds for construction, and what 
impact that is going to have. I was unclear from your testimony 
whether you all actually consider it a cut or it is a flat 
budget from over last year.
    Mr. Echo Hawk. Mr. Chairman and Senator Udall, there is 
$115 million in our budget for construction. And there is a $9 
million reduction when it comes to school construction. So I 
think the explanation for that, I think I have already 
commented, is the fact that with the stimulus money we received 
substantial amounts for detention and school construction. And 
in order to move forward on important priorities, other 
priorities identified by tribal representatives, it was one of 
those tough decisions that we made.
    But that does not signal that we are giving up on 
aggressive and strong support for school construction.
    Senator Udall. What is the current backlog for school 
construction? The overall number.
    Mr. Echo Hawk. Mr. Chairman and Senator Udall, $1.3 
billion.
    Senator Udall. One point three billion. OK. And obviously 
under your current funding levels that you have requested, 
there is no way you could wipe that out.
    Mr. Echo Hawk. Mr. Chairman and Senator Udall, there is no 
way.
    Senator Udall. On these schools, and I am very interested, 
because a number of schools in New Mexico have these incredible 
deficiencies that aren't being taken care of, and the health 
and safety of the kids is threatened. There was a Bureau of 
Indian Affairs Inspector General report just several years ago 
that covered some of these conditions. These were the kinds of 
things that this Inspector General said: ``Although we have not 
yet completed this audit, we wanted to bring your attention to 
serious health and safety deficiencies we identified in BIE 
schools. We found severe deterioration at elementary and 
secondary schools, including boarding schools.'' And at one 
point they say, ``These severe deficiencies have the potential 
to seriously injure or kill students and faculty and require 
immediate attention to mitigate problems.'' Now, this was 
applying to boarding schools in Arizona and New Mexico.
    My question is, and this is before you got there, but after 
receiving a report like this, which was devastating in terms of 
what was happening in these schools, and a devastating 
indictment. Did the Department move to correct these 
deficiencies, and did you do a review of all of your schools in 
light of this report, to see what the deficiencies were and how 
you would move forward with them?
    Mr. Echo Hawk. Mr. Chairman and Senator Udall, I think I 
can only account for the last 8 months. I can't speak to what 
action was taken under prior Administrations. But in my first 8 
months of service, I have taken time to travel to virtually 
every quarter of the Country and Indian Country, going into 
communities, visiting schools, detention facilities and so 
forth, to learn more about what the true needs are. I recognize 
there are enormous needs when it comes to the condition of 
schools. Those needs are identified and we would just be 
willing and anxious to work with this Committee to see what we 
can do to make progress in meeting that enormous backlog.
    Senator Udall. Thank you very much. I think one of the ways 
to meet the backlog, and I know that you are going to argue for 
this within the Administration, is to come up with a multi-year 
plan. Because currently, the way we are approaching this, we 
are never going to really reduce the backlog. Obviously, the 
ARRA moneys make a difference, but we are still a long ways 
off. I thank the Chairman for your indulgence.
    The Chairman. Senator Udall, thank you very much.
    Dr. Roubideaux, let me ask you about--I am sorry, Senator 
Murkowski, why don't you proceed. I apologize.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you.
    Deputy Under Secretary Echo Hawk, first I want to thank 
you. I appreciate the commitment that has been made with regard 
to the tribal priority allocation . I know that Loretta 
Bullard, who is president of Kawerak Inc., and Gloria O'Neil, 
have long advocated at the BIA budget advisory meetings for a 
need in adequate funding. I understand that there is a minimal 
increase, $3 million, to the small and needy tribes. It is not 
much, but every little bit helps for these smaller tribes 
across the Country.
    A couple of questions. First, is one that I have asked over 
the years at these hearings. This is the Juneau BIA office and 
its future. My position has been that we need to keep the BIA 
offices there in Juneau, in the capital city, in southeastern 
Alaska. It is very important to the region's economy. Can you 
give me an update on what the status is on that office, and 
where we might be in hiring a BIA Alaska area director?
    Mr. Echo Hawk. Senator Murkowski, the response is the same 
that I have given previously on this question. The regional 
director did move from Juneau to Anchorage. But there are no 
plans to move the rest of that office. So that would remain in 
Juneau.
    Senator Murkowski. And then as far as the status of hiring 
an Alaska area director? We are still good?
    Mr. Echo Hawk. Mr. Chairman and Senator Murkowski, that is 
still in process and very near completion. But we are at the 
stage where very soon we will be consulting with the Alaska 
Native leaders on that selection.
    Senator Murkowski. If you can, keep us apprised of that.
    The other issue is that of the Indian reservation roads. I 
think just about every Native group, every tribe that comes to 
visit me here in Washington has raised and expressed their 
concerns about the IRR program at the BIA. I am told that many 
of the tribes have moved over to the Federal Highways just to 
avoid the administrative hurdles that they have to go through 
with the Bureau.
    Generally, do you have any plans to overhaul the IRR 
program, so that I might be able to give something back to my 
constituents in terms of general direction on this?
    Mr. Echo Hawk. Mr. Chairman and Senator Murkowski, just a 
few comments on the roads. Again, the stimulus money was very 
important here. I think we received in total about $390 million 
directly or by transfer from Department of Transportation. So 
that has had enormous impact.
    But the needs are great. And it has been, to my 
understanding, as I recall, level funded for several years. So 
more needs to be done in that regard. One of the major issues 
is not only the level of funding for roads, but the formula 
that is used to distribute what funds we have available. I was 
hoping that we would get direction through consultation process 
which has been occurring. We have been reaching out to tribal 
leaders to get guidance.
    But I think maybe the word that describes the situation is 
stalemate. We have not received back from tribal leaders what 
their desire is. Because there is division of opinion out 
there. Recently I just directed my staff to move forward in 
trying to craft what we think is the appropriate formula, 
taking into account the equities and then to venture out there 
in a consultation process with that formula, which again I 
think you will see manifested division of opinion about whether 
that is fair or not, depending on who you are and where you are 
located.
    But there have been increases in the amount of roads that 
we have responsibility for without comparable increases in 
funding. So there is great need.
    Senator Murkowski. And I appreciate the need. You know that 
we have struggled with just the inventory aspect of it. Again, 
my experience with it has been, it has taken an act of 
Congress, practically, to get the money that we know is out 
there, and actually get that translated to the project. So I 
would like to continue to work with you on this.
    Ms. Roubideaux, I am pleased to see you here today. I 
actually understood that you were supposed to be in Alaska and 
attending our tribal health summit there. But this hearing 
actually prevented that. So I get to see you, but Alaska 
doesn't. So hopefully you will make a return visit. I know that 
your presence there is appreciated, and your opportunities to 
come and know and understand the situation a little bit better 
is appreciated.
    I wanted to ask you about the dental health therapist 
program that we have. I think you have seen, we have had 
opportunity here on this Committee to bring this issue up and 
demonstrate the real substantive gains that we have made with 
that program. Very briefly, can you tell me what kind of 
support the IHS can give to innovative programs such as the 
dental health therapy training program to ensure that this is 
not just a short-term good idea that disappears and isn't 
sustainable for the long term?
    Dr. Roubideaux. Well, the Indian Health Service is 
definitely interested in learning about best practices, how we 
can better deliver care. And we are well aware of the good work 
of the program in Alaska on this topic.
    While we can't comment on issues that are sort of pending 
in legislation or that sort of thing, I can tell you that I 
know we want to do better in terms of how we deliver dental 
health care. We know that there are innovative ideas. We have 
in the past had a problem with shortages of being able to 
recruit dentists into very rural areas. Our dental recruitment 
numbers are a bit better this year and we are grateful for 
that. But we still understand there is quite a bit of need.
    And so I real think that your program is a great best 
practice for us to look at, at how we can deliver better 
quality dental care.
    Senator Murkowski. We certainly agree, and would want to 
see that continued and encouraged.
    I have a couple more questions. One relates to the 
inadequate funding for the village-built clinic lease. I would 
hope that IHS would be willing to work with my staff on that 
issue as it relates to the shortfalls. And then also the 
staffing for the new Yukon-Kuskokwim Delta Regional Hospital 
that is based in Bethel. I know that you are aware of that 
issue. I would like to have a little more followup on what we 
might anticipate with that Bethel staffing package in your 
budget request.
    Thank you, Mr. Chairman.
    The Chairman. Senator Murkowski, thank you very much.
    Let me ask a few questions and then I will submit 
additional questions in writing to the panel. First, Dr. 
Roubideaux, does the IHS have a plan on how to expand mental 
health services dealing with the suicide issues? As you know, 
there has been a severe shortage of mental health professionals 
and mental health services in tribal communities. The suicide 
prevention and mental health services are not prioritized in 
the President's budget. So is there some IHS plan on how to 
expand those services at this point?
    Dr. Roubideaux. Yes, we believe the problem of suicide is a 
high priority for us. We want to do everything we can to 
address this, not just ourselves but with our other partners. I 
recently met with the new Administrator of SAMHSA. We talked a 
bit on that issue.
    We have done a number of things to address that problem. We 
recently hired a new director of our mental health program who 
happens to have specific expertise in the area of suicide 
prevention and treatment. So we think we are going to have some 
gains there. The budget does include funding and current 
services increases for mental health funding.
    In addition, you are aware of our MSPI initiative, it is 
the Meth and Suicide Prevention Initiative. That is up and 
going. We have funded 129 projects in 21 States, $24 million 
has already been sent out to programs who are looking at ways 
to both prevent, treat and respond to suicide in Indian 
communities. We do have a strategic plan that we are working on 
and our behavioral health program is doing what it can to 
respond to suicide emergencies.
    I just heard last week, there was a suicide problem in a 
southwestern State. We deployed some staff out there to work on 
that with a local tribe. I can report that in that community, 
the number of suicides has gone down. So we do know that if we 
can get providers out there, and if we can address these 
issues, that can help.
    You will notice in the Fiscal Year 2011 budget request, 
there was $4 million additional money for substance abuse 
treatment in primary care settings. The intent of that is to 
get more behavioral health providers. While that is for 
substance abuse treatment, those providers can also help us 
with the problem of suicides. Sometimes those are related.
    So we still think it is a priority and we are doing 
everything we can to address the problem.
    The Chairman. I was thinking about this issue of schools. 
One of my colleagues talked about new schools being built at 
the cost of I believe $30 million to $50 million, or $20 
million to $50 million. It relates also to health facilities. I 
heard the other day of two facilities, two clinics that are 
being built, and I think they were $70 million each. On the 
Fort Berthold Reservation, we were owed a clinic, because the 
hospital was submerged underwater decades ago, and the promise 
was to build a new facility. It is being built now, and I 
appropriated it under the Corps budget, because the Corps is 
the one that inundated the previous hospital and made the 
promise.
    So I funded it, but it is a $20 million clinic. The Indian 
Health Service proposed a $111 million clinic. The $20 million 
clinic is going to be a wonderful addition to that Indian 
Reservation. But $111 million was way, way out of bounds.
    So the other day, when I heard about two more clinics being 
built for $70 million, I am asking myself the question, just as 
my colleagues did, how is it that a school comes in at a $50 
million cost or a clinic comes in at a $70 million cost, we are 
building a $20 million clinic on the Fort Berthold Reservation 
right now for health care, and it is going to be a great 
clinic. So I have asked the Government Accountability Office to 
be looking into this question: how is all this money being 
spent? How is it that the IHS suggested that the clinic that we 
needed in New Town, North Dakota was $111 million? I said, are 
you wacky? I guess I said that to no one.
    [Laughter.]
    The Chairman. But was somebody wacky here, suggesting that 
that is the amount of money we should spend?
    So we are not doing that, we are spending $20 million. Well 
enough. But the same question, it seems to me, needs to be 
applied to what are the specs, how are we constructing these 
things? And I am going to have the Government Accountability 
Office look into both to understand what is driving this.
    I think because we have a second panel and I want to allow 
time for them, they have come a long way to be with us, I am 
going to submit a series of written questions. Let me make one 
point. In my opening statement, I describe the areas where we 
are short and we need to do much, much, much better. I didn't 
describe that there are some areas where I am pleased that this 
Administration has reversed course from the previous 
Administration and is funding certain things that I think will 
be beneficial to the lives of Native Americans. So let me 
simply say that added to what I said at the start of this 
hearing, it should be noted there are some areas of 
improvement.
    But it is very important to point out what we need that we 
are not getting in order to improve the lives of the First 
Americans who received so many promises that have been broken 
for so long.
    I thank all three of you for your work on Indian issues. I 
know that you are serious of purpose in addressing these things 
and appreciate your being with us to be able to have a 
discussion. I will submit questions in writing to the three of 
you and thank you for your continuing efforts. Let me ask you 
to be excused, then we will ask the three additional witnesses 
to come forward. Thank you.
    And the term wacky is a term of art, I think. I don't know 
what it means, but perhaps another member of the panel does.
    [Laughter.]
    The Chairman. We are going to call to the witness table Mr. 
Jefferson Keel, the Honorable Jefferson Keel, President of the 
National Congress of American Indians; the Honorable Patricia 
Whitefoot, President of the National Indian Education 
Association; and the Honorable Marty Shuravloff, Chairman of 
the National American Indian Housing Council. I know that you 
have traveled some ways to be with us. We appreciate your 
willingness to come and participate. All of you have leadership 
positions, national leadership positions in areas of 
significant importance and interest. We very much appreciate 
that.
    Mr. Keel, those of us on the Committee have really 
appreciated being able to work with you in your role as 
President of the National Congress. We welcome you. Is Patricia 
Whitefoot here? There you are. Patricia, thank you.
    Mr. Keel, as I indicated to the previous panel, your entire 
statement will be made a part of the record. We would 
appreciate it if you would summarize for us. You may proceed 
with your statement.

STATEMENT OF HON. JEFFERSON KEEL, PRESIDENT, NATIONAL CONGRESS 
                      OF AMERICAN INDIANS

    Mr. Keel. Thank you, Mr. Chairman, Senators, members of the 
Committee. Thank you for this opportunity to make our comments. 
As you said, we will present our testimony in writing. I will 
try to be brief.
    We applaud the Administration's proposals to continue to 
make investments in Indian health, tribal public safety, 
environmental protection programs and self-determination 
contract supports, costs and administrative cost grants. NCAI 
has developed recommendations for many areas of the Federal 
budget in concert with tribal leaders, agency budget advisory 
councils and our sister organizations.
    The areas for increased investments include a general 
increase to tribal priority allocations, contract support costs 
at BIA and IHS public safety, education, health, and natural 
resources. Another area of critical importance to tribes is 
public safety and justice. As Mr. Perrelli has already 
testified, the President has requested significant changes to 
the DOJ funding for Indian Country, as well as major increases. 
NCAI supports these increases, which are necessary to 
strengthen the law enforcement infrastructure in Indian 
Country.
    We request that the support provided for detention 
facilities is at least maintained at the Fiscal Year 2010 level 
of $10 million for Fiscal Year 2011. NCAI appreciates the 
efforts of this Committee to develop legislation to foster the 
responsible development of traditional and clean energy 
resources on tribal lands. In addition to energy resources, the 
health and maintenance of other natural resources, forest 
lands, water, fisheries, wildlife and outdoor recreation is 
vital to Native communities.
    The Indian Affairs budget request for natural resources 
programs proposes to provide recurring funding for several 
longstanding tribal natural resources programs. Like the 
Washington State timber-fish-wildlife program, the Circle of 
Flight, Lake Roosevelt Management and Upper Columbia United 
Tribes, which in prior years' budget requests were treated as 
earmarks. NCAI supports the continued funding of these 
returning programs as opposed to earmarks. NCAI appreciates the 
$30 million in EPA for multimedia tribal implementation grants 
to support on the ground implementation of environmental 
protection on tribal lands, as well as the increase for EPA 
general assistance.
    We encourage this Committee to help boost levels of many of 
the other natural resource programs laid out in our written 
budget testimony and comprehensive budget document.
    NCAI and tribal leaders are very alarmed at the proposed 
decrease to the Native American Housing Block Grant program in 
HUD. The proposed level would cut the Housing Block Grant 
program by 17 percent from Fiscal Year 2010 enacted level. The 
justification for this action is that the program is operating 
at a high volume due to Recovery Act funding. However, the ARRA 
funding was intended to be over and above regular 
appropriations.
    The proposed reduction to the formula level also comes at 
the same time that the President has requested a 3-year freeze 
in domestic spending. This proposed reduction would impact 
smaller and poorer tribes in 2011. As Indian Country works 
toward putting our citizens back to work the proposed cut would 
adversely affect the construction industry, which is one of the 
more stable industries, with substantial employment in Indian 
Country. We urge this Committee to work toward restoring the 
cut proposed for the Housing Block Grant funding for Fiscal 
Year 2011.
    Indian Country is a critical player as the Nation considers 
ways to promote jobs and work toward economic recovery. When 
tribes have the necessary tools to exercise their inherent 
right of self-government, the results include strides toward 
improving the health, social and economic well-being of Indian 
Country, non-Native citizens residing on reservations, and off-
reservation residents of neighboring communities. We look 
forward to working with you to ensure that the needs of Indian 
Country are addressed in the Fiscal Year 2011 appropriations 
process.
    Thank you.
    [The prepared statement of Mr. Keel follows:]

Prepared Statement of Hon. Jefferson Keel, President, National Congress 
                          of American Indians

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Mr. Keel, thank you very much. We appreciate 
your being here.
    Finally, the Honorable Patricia Whitefoot, the President of 
the National Indian Education Association. Ms. Whitefoot, you 
may proceed.

   STATEMENT OF HON. PATRICIA WHITEFOOT, PRESIDENT, NATIONAL 
                  INDIAN EDUCATION ASSOCIATION

    Ms. Whitefoot. Thank you very much, Mr. Chairman. Chairman 
Dorgan, members of the Senate Committee on Indian Affairs, I am 
honored to have this opportunity to submit testimony on behalf 
of the National Indian Education Association with regard to 
President Obama's Fiscal Year 2011 budget request.
    In 1969, the Senate Kennedy Report documented the 
complexities in Indian education in both the public and Bureau 
of Indian Education school systems. This landmark report 
validated the current concerns Indian parents and tribal 
leaders have voiced since the introduction of formal education 
for our children. With the founding of the National Indian 
Education Association in 1970, Indian people have experienced 
significant progress in education of their children.
    For example, Indian communities have realized greater 
participation in and control of programs and schools than ever 
before. The enactment of the Indian Education Act of 1972 
allowed funding for culturally related academic programs for 
Native students in public schools, and the Tribal College Act 
established tribal colleges and universities that promote 
greater access to culturally relevant higher education.
    The passage of the Native American Language Act of 1992 and 
more recently, the passage of the Esther Martinez Language 
Immersion and Restoration Act, and many other programs and 
policies, have helped to improve curricula, teacher education 
and promote the educational and culturally related academic 
needs of Native students.
    Mr. Chairman, on behalf of NIEA's national constituency of 
students, parents, educators, elders, tribal leaders and Native 
Hawaiians, I want to thank you and the Committee for your 
continued support to help bring about these important changes. 
While we have realized important progress in Native education 
over the past four decades, there is much more to be 
accomplished. Far too many of our students continue to 
experience abject failure.
    In this regard, a newly released study by the Civil Rights 
Project at the UCLA Graduate of Education and Information 
Studies found that less than 50 percent of American Indian and 
Alaska Native students in 12 States graduate from high school. 
In terms of correcting historical funding inequities, NIEA in 
its advocacy role strives to ensure that the Federal Government 
upholds its responsibility for the education of Native students 
to the provision of direct educational services. It is 
imperative that the Federal Government recognize and support 
the cultural, social and linguistic needs of our students to 
guarantee the continuity of Native communities.
    NIEA is very hopeful that educating Native students will be 
eligible to receive funding to participate in a number of 
programs proposed in President Barack Obama's Fiscal Year 2011 
budget, including the early childhood education programs, 
Promise Neighborhoods and ``successful models for turning 
around low-achieving schools.''
    In particular, NIEA supports the concept of the Promise 
Neighborhood program, that it aims to improve academic 
achievement, college matriculation rates and life outcomes in 
high poverty areas, by providing a network of support services 
in an entire neighborhood from birth to college. NIEA would 
like to see Promise Neighborhoods established in Indian 
Country.
    In reaffirming sovereignty, NIEA believes that with 
president Obama's pledge to affirming tribal sovereignty 
through stronger funding for educational programs, we will 
begin to see positive changes in Native students' educational 
attainment. We appreciate the budgetary gains of the past year, 
however, NIEA believes there is continuing need for additional 
resources to reverse budget limitations of the past for Native 
education programs. NIEA is very hopeful that schools educating 
Native students will receive stronger support and funding for 
Native language and cultural curriculum, increased funding for 
Head Start programs, funding for Indian school construction and 
repairs, and increased funding for tribal colleges' operations 
and construction as stated in President Obama's blueprint for 
strengthening tribal communities.
    In consideration of the economic downturn and constrained 
domestic budget, NIEA requests a modest 5 percent increase for 
Fiscal Year 2011 over the Fiscal Year 2010 enacted levels of 
$194,912 million for a total of $204.65 million for ESEA Title 
VII funding. This amount would include a 5 percent increase in 
funding for the following programs within Title VII: Indian 
education, Alaska Native education equity, and education for 
Native Hawaiians. President Obama's 2011 budget request of 
Fiscal Year 2010 enacted level of $194.912 million, NIEA 
appreciates the Congress provided an increase in Fiscal Year 
2010 of $5 million over Fiscal Year 2009 enacted level for 
Title VII.
    Mr. Chairman, I also would like to just acknowledge Impact 
Aid under Title VIII under ESEA to also request a 5 percent 
increase over the Fiscal Year 2010 enacted level for Impact 
Aid.
    [The prepared statement of Ms. Whitefoot follows:]

  Prepared Statement of Hon. Patricia Whitefoot, President, National 
                      Indian Education Association

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Ms. Whitefoot, thank you very much for your 
testimony. Finally, we will hear from Mr. Marty Shuravloff, the 
Chairman of the National American Indian Housing Council. Mr. 
Shuravloff, thank you.

STATEMENT OF HON. MARTY SHURAVLOFF, CHAIRMAN, NATIONAL AMERICAN 
                     INDIAN HOUSING COUNCIL

    Mr. Shuravloff. Thank you, Chairman Dorgan and members of 
the Committee. I would like to thank you for having me here 
this afternoon to discuss President Obama's Fiscal Year 2011 
budget request.
    As background, NAIHC, for 36 years, has represented their 
membership of almost 460 tribes across the Country. First, 
NAIHC would like to thank Congress for its increased investment 
in Indian housing for Fiscal Year 2010. The American Recovery 
and Reinvestment Act, ARRA, provided nearly $510 million for 
the Indian Housing Block Grant program. This additional 
investment in Indian Country supports hundreds of jobs, but 
more importantly, has allowed some tribes to start on new 
construction projects they could not have otherwise afforded 
with the Indian Housing Block Grant allocation.
    Further, they have complied with the mandate to obligate 
the funds in an expedient manner, thus helping to stimulate 
tribal and the national economies. In addition to the ARRA 
funding, Congress appropriated $700 million for the Indian 
Housing Block Grant in Fiscal Year 2010, the first significant 
increase for the program since it began, reversing a decade of 
funding levels that neither kept pace with inflation nor 
addressed the acute housing needs in Native communities.
    It is important to remember that the Indian Housing Block 
Grant is the single largest source of funding for Native 
housing. Supporting new housing development, acquisition, 
rehabilitation and other housing services is important for 
tribal communities. On February 1st, 2010, President Obama 
submitted to Congress a $3.8 trillion budget request which 
proposes a 3-year freeze on non-defense discretionary spending. 
This category includes the bulk of programs and services for 
tribal communities, and in particular, Indian housing programs. 
The budget request proposes $572.2 million for the Indian 
Housing Block Grant, a decrease of $120 million, down 18 
percent from the Fiscal Year 2010 funding level. At the same 
time, HUD's overall budget was reduced by only 5 percent.
    Should the Congress accept the President's budget proposal, 
it would be the lowest single year funding level for the Native 
American Housing Assistance and Self-Determination Act since it 
was enacted in 1996. To put this into proper context, Congress 
appropriate $600 million in Fiscal Year 1998, 12 years ago, $20 
million more than the President's budget request for Fiscal 
Year 2011.
    While the NAIHC and its members are aware of and appreciate 
the large investments made in Indian housing, we are 
disappointed that the current request fails to continue the 
positive budget trajectory of recent years. Therefore, the 
NAIHC strongly urges Congress to not only appropriate fund 
above the President's budget request, but to fund the Indian 
Housing Block Grant at $875 million, due to the increase in 
costs for housing development, energy efficiency initiatives 
and other inflationary factors.
    Since the President's budget request has been released, 
many of our members have expressed to us their deep concern. 
They believe this budget impacts not only housing but also the 
very hope for self-sustaining economies in Indian Country. 
Reduced funding would result in the loss of jobs for our 
people, deterioration of existing housing units and the 
curtailment of many housing projects that are currently under 
development.
    The budget request also proposes an agency-wide 
transformation initiative fund (TIF) with up to 1 percent of 
HUD's total budget, drawing funds away from essential housing 
programs, including $5.8 million from the Indian Housing Block 
Grant account to continue the ongoing comprehensive study of 
housing needs in Indian Country and Native communities in 
Alaska and Hawaii.
    While the NAIHC membership believe that TIF may have merit, 
we do not believe that transferring nearly $6 million from the 
block grant account to conduct a study on housing needs is a 
wise or even defensible use of Federal taxpayer funds. More 
importantly, the $6 million also includes funding that has 
historically been appropriated to NAIHC for training and 
technical assistance.
    Through resolutions, the NAIHC membership has repeatedly 
taken the position that a portion of the Indian Housing Block 
Grant allocation should be provided to NAIHC for training and 
technical assistance, a reflection of their confidence in NAIHC 
and the services we provide.
    In closing, while we have specific concerns with funding 
levels, NAIHC supports the proposal to enhance coordination 
between HUD offices that serve tribal communities. We also 
support the proposal to improve collaboration with other 
Federal agencies. NAIHC has proposed the creation of a Native 
American housing task force to support these efforts.
    This concludes my statement. Thank you again for having me 
here today.
    [The prepared statement of Mr. Shuravloff follows:]

    Prepared Statement of Hon. Marty Shuravloff, Chairman, National 
                    American Indian Housing Council
Introduction
    Good afternoon Chairman Dorgan, Vice Chairman Barrasso, and 
distinguished members of the Committee on Indian Affairs. I am Marty 
Shuravloff and I am the Chairman of the National American Indian 
Housing Council (``NAIHC''), the national tribal organization dedicated 
to advancing housing, physical infrastructure and economic development 
in tribal communities in the United States. I am an enrolled member of 
the Leisnoi Village, Kodiak Island, Alaska, and serve my community as 
the Executive Director of the Kodiak Island Housing Authority.
    I want to thank the Committee for the invitation to appear before 
you this afternoon to discuss President Obama's FY 2011 budget request.
    Before discussing the tribal programs and initiatives proposed in 
the budget request, I want to thank you, Chairman Dorgan, for your many 
years of dedication and commitment to the welfare of Indian people and 
the leadership you have shown, both as a member and now the Chairman of 
this important Committee.
Background on the National American Indian Housing Council
    The NAIHC was founded in 1974 and for 36 years has served its 
members by providing valuable training and technical assistance, 
working with key Federal agencies, and providing information to the 
Congress on the many challenges tribal communities face when it comes 
to housing, infrastructure, and community development. The membership 
of NAIHC is expansive and consists of approximately 270 tribal housing 
entities, representing almost 460 tribes across the United States.
American Recovery and Reinvestment Act and the FY 2010 Budget for 
        Indian Housing
    First, NAIHC would like to thank Congress for its increased 
investment in Indian housing for FY 2010. The American Recovery and 
Reinvestment Act (AARA) provided nearly $510 million for the Indian 
Housing Block Grant (IHBG) program. This additional investment in 
Indian Country supports hundreds of jobs, but more importantly, has 
allowed some tribes to start on new construction projects they could 
not have otherwise afforded with their IHBG allocation. Further, they 
have complied with the mandate to obligate the funds in an expedient 
manner, thus helping to stimulate tribal and the national economies.
    In addition to the ARRA funding, Congress appropriated $700 million 
for the IHBG in FY 2010, the first significant increase for the program 
since it began--reversing a decade of funding levels that neither kept 
pace with inflation nor addressed the acute housing needs in Native 
communities.
    It is important to remember that the IHBG is the single largest 
source of funding for Native housing, supporting new housing 
development, acquisition, rehabilitation, and other housing services 
important for tribal communities.
The President's FY 2011 Budget Request for the Indian Housing Block 
        Grant
    On February 1, 2010, President Obama submitted to Congress a $3.8 
trillion budget request, which proposes a 3-year freeze on non-defense, 
domestic discretionary spending. This category includes the bulk of 
programs and services for tribal communities, in particular Indian 
housing programs.
    The budget request proposes $572.2 million for the IHBG, a decrease 
of $120 million (-17 percent) from the FY 2010 funding level. At the 
same time, HUD's overall budget was reduced by only 5 percent. Should 
the Congress accept the President's budget proposal, it would be the 
lowest, single-year funding level for the Native American Housing 
Assistance and Self-Determination Act (NAHASDA) since it was enacted in 
1996. To put this in proper context, funding appropriated by Congress 
in FY 1998--twelve years ago--was $20 million more than the President's 
budget request for FY 2011.
    While the NAIHC and its members are aware of and appreciate the 
large investments made in Indian housing, we are disappointed that the 
current request fails to continue the positive budget trajectory of 
recent years.
    Therefore, the NAIHC strongly urges Congress to not only 
appropriate funds above the President's budget request, but to fund the 
IHBG at $875 million due to the increasing costs for housing 
development, energy efficiency initiatives, and other inflationary 
factors.
    Since the President's budget request has been released, many of our 
members have expressed to us their deep concern. They believe this 
budget impacts not only housing, but also the very hope for self-
sustaining economies in Indian Country. Reduced funding would result in 
the loss of jobs for our people, the deterioration of existing housing 
units, and the curtailment of many housing projects that are currently 
under development.
Other Indian Housing and Related Programs
The Title VI and Section 184 Indian Housing Loan Guarantee Programs
    The budget request includes $2 million for the Title VI Loan 
Guarantee program and $9 million for the Section 184 program. The Title 
VI program is important because it provides a 95 percent loan guarantee 
on loans made by private lenders, which is an incentive for those 
lenders to get involved in the development of much needed housing in 
tribal areas. Section 184 is specifically geared towards facilitating 
home loans in Indian Country. We request that these programs continue 
to be funded at their current levels.
Indian Community Development Block Grant
    The budget request includes $64 million for the Indian Community 
Development Block Grant, which is available to Federally recognized 
tribes and Alaska Native villages on a competitive basis. This funding 
may be used for community facilities and economic development, and is 
an important source of funding for housing rehabilitation and the 
development of infrastructure that is vital for Native communities.
BIA-HIP Program and Veterans Affairs Native American Housing Loan 
        Program
    The budget request proposes $12 million for the BIA's Housing 
Improvement Program, but zeroes out the Department of Veterans Affairs 
Native American housing loan program, which provides direct loans to 
Indian veterans who are members of Federally-recognized tribes, for the 
purchase, construction, refinancing, or improvement of homes located on 
Federal trust lands. This is a concern to NAIHC, because as this 
Committee is well aware, a disproportionately large number Native 
people serve in the armed forces as compared to rest of the American 
population. It is our duty to ensure that our Native American veterans, 
especially those who have been wounded or disabled in combat, are 
provided decent, safe, and sanitary housing.
Native Hawaiian Housing
    Low-income Native Hawaiian families continue to face tremendous 
challenges, similar to those that tribal members face in the rest of 
the United States. The President's funding request of $10 million for 
the Native Hawaiian Housing Block Grant is appreciated, but the budget 
includes no funding for the Section 184A program in Hawaii. While it 
has taken some time to get this program started--because lenders are 
not familiar with 184--providing no funding would be a step backward 
for Native Hawaiian families working toward homeownership. We urge 
Congress to consider this before agreeing to the Administration's 
proposal to eliminate funding for the program.
The Proposed Transformation Initiative and Use of Indian Housing Block 
        Grant Funds
    The budget request also proposes an agency-wide Transformation 
Initiative Fund (TIF) with up to 1 percent of HUD's total budget 
drawing funds away from essential housing programs, including $5.8 
million from the IHBG account, ``to continue the on-going comprehensive 
study of housing needs in Indian Country and native communities in 
Alaska and Hawaii.''
    While the NAIHC membership believes the TI may have merit, we do 
not believe that transferring nearly $6 million from the IHBG account 
to conduct a study on housing needs is a wise or even defensible use of 
Federal taxpayer funds. More importantly, the $6 million also includes 
funding that has historically been appropriated to NAIHC for training 
and technical assistance. Through resolutions, the NAIHC membership has 
repeatedly taken the position that a portion of the IHBG allocation 
should be provided to NAIHC for training and technical assistance--a 
reflection of their confidence in NAIHC and the services we provide.
Conclusion
    In closing, while we have specific concerns with funding levels, 
NAIHC supports the proposal in the budget request to enhance 
coordination between HUD's Office of Native American Programs (ONAP) 
and other offices within HUD that serve tribal communities. We also 
support the proposal for ONAP to improve its collaboration with other 
Federal agencies including the Bureau of Indian Affairs, the Department 
of Agriculture, the Indian Health Service, and the Environmental 
Protection Agency. NAIHC has proposed the creation of a Native American 
Housing Task Force to support these efforts.
    This concludes my prepared statement. Thank you again for this 
opportunity, and I would be happy to answer any questions you may have.

    The Chairman. Thank you very much for being with us today.
    Senator Franken?
    Senator Franken. Thank you, Mr. Chairman. Thank you all for 
your testimony.
    Mr. Keel, in your written testimony you highlight the $1.2 
million at DOJ for redesign and development of data collection 
programs for Indian Country. In your opinion, what would be the 
best use of those funds?
    Mr. Keel. Senator, there is just a tremendous need to 
validate a lot of the data that has already been provided. We 
have a number of facilities that could utilize that 
information. I think that I would like to get back to you with 
an accurate answer on that. Because it is an important area 
that we really need to touch on.
    Senator Franken. In Minnesota, there is something called 
the I Care program, which was the brain child of Bill Blake, a 
Native American Minneapolis cop. And his daughter had sort of 
prevailed upon him to develop this. Not long later, she was 
shot and killed. The idea was for tribes to, in Minnesota and 
Wisconsin, to share data on crime. Because very often, it 
isn't.
    Because Bill was a beloved guy and the tribes have agreed 
to do this, I think it s a great thing. Very often, there will 
be criminals who go from one reservation to another, and then 
come to Minneapolis or St. Paul.
    Have you seen programs like this around the Country? How 
have they addressed the critical problem of poor crime 
statistics that we have?
    Mr. Keel. Senator, I have seen some examples of exactly 
what you are talking about. A number of youth from different 
parts of the Country who become transient, they do leave for 
whatever reason one area and go to another. Sometimes it is 
because they visit relatives or they have friends or relatives 
in different parts of the Country.
    The idea that we need to share data is also not just in 
terms of detention facilities, but it has to do with mental 
health issues, the other treatment issues that we need to 
provide for our youth who are troubled, who are at risk in a 
number of ways, whether it be suicide, mental health issues, 
drug use. There is a number of factors that include gang 
affiliation and the development of these associations. And we 
talk about validating some of this data, sometimes there is 
duplicate numbers. That is what I would like to get back to you 
with a detailed accounting of this.
    Senator Franken. Thank you.
    Ms. Whitefoot, in your written testimony you talk about the 
need to restore funding for the Johnson O'Malley program. At 
the Leech Lake Reservation in Minnesota, this program helps 
provide students who are in poverty with school supplies, with 
uniforms for after school activities, sports, for tutoring 
services, et cetera. In other words, it gives a poor student 
access to kind of basic things that all students in this 
Country need.
    Since 2006, the amounts for the Johnson O'Malley program 
has gone from $24 million down to about $21 million. What 
difference could this $3 million make, in your mind?
    Ms. Whitefoot. We have to remember that Johnson O'Malley 
funding was frozen several years ago, and it has not taken into 
account the number of increases that we have had in Native 
student enrollment. When it was frozen at that time, it was 
frozen based on the number of students that existed at that 
time. What has happened during that time, for instance, in our 
public schools, we have had a significant increase in Native 
student enrollment. So we need to take a look at that increased 
enrollment of Native students.
    But also in terms of the needs that exist out there, just 
in the public school district where I come from, we have very 
limited funding, both in the Title VII and Johnson O'Malley 
program. When these types of supplemental funds are decreased, 
you have very little to be able to access for resources. What 
ends up happening with these particular programs is, we have to 
go out and locate other additional resources, such as have been 
discussed here, whether that be under SAMHSA, I have heard 
SAMHSA mentioned, Health and Human Services, or local 
resources. So there is a tremendous need for Johnson O'Malley 
to be made available, but also the funds to be restored.
    Senator Franken. I know I am out of my time, but the number 
one determinant of whether a kid graduates from high school is 
that he or she identify with their school. If they are doing 
after school programs, and some of these public schools have 
fees for playing sports, fees for being in the band. This is so 
important, in my mind. Thank you all for your testimony. Thank 
you, Mr. Chairman.
    The Chairman. Senator Franken, thank you very much.
    Senator Murkowski?
    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Keel, I appreciate your mentioning, on behalf of NCAI, 
the concern about the cuts to the housing block grants. We have 
had an opportunity to discuss this issue a couple of times in 
my office, meeting with Alaskans, and then at the summit a 
couple of days ago. I find it so troubling to know that are 
kind of robbing Peter to pay Paul, for instance, taking money 
from the block grant to provide for housing study. Well, I 
don't know what is like specifically in other reservations, but 
I am told that in our State, we have a 13,000 unit backlog for 
homes. And we need to weatherize an additional 27,000 homes. It 
seems to me that if we can specify numbers like that, we don't 
really need a study to tell us that we have an issue with 
housing for our Alaskan Natives and for American Indians. So we 
shouldn't be taking the money out of the block grant to tell us 
what we already know. So this is an issue that, again, I share 
the concerns, we need to figure out how we deal with it.
    Patricia, it is good to see you here. I think it is very 
important and appropriate that you be here to speak to the 
impact of the President's budget on Indian education. It would 
be nice to have someone from the Administration, whether it is 
the Secretary, Secretary Duncan or Sebelius, speaking to this 
issue, because I think it is so important that we understand 
very clearly what the priorities are when it comes to providing 
educational opportunities for our Indian children.
    Senator Franken has mentioned the Johnson O'Malley funds. 
In addition to the Johnson O'Malley funds, you cite in your 
testimony, Ms. Whitefoot, the BIE school facilities, the Impact 
Aid, the tribally controlled colleges, the Title VII Indian 
Education. I have to ask the question, do you think that the 
President and the Administration have proposed a budget that 
will in fact meet the needs of children in Indian Country?
    Ms. Whitefoot. Having been involved with Indian education 
for about 35 years, and again, I just want to stress the fact 
that the funding that we receive at the community level is 
very, very minimal, the local education and the school 
districts where we work, and I do want to repeat again that 
oftentimes what I end up doing is I end up going after 
additional resources just to be able to address some of the 
needs that we have in our school districts and in our 
communities. I think there is a need for more to be done in 
terms of the work that we do in Indian education.
    I manage the Head Start programs for my tribe, the Johnson 
O'Malley programs, the Title VII. Just given all of the 
information that you have heard here today on health-related 
issues, the youth suicide, the substance abuse related issues, 
the homelessness that we experience in our school districts, we 
are talking about the need to address Native student education 
and their overall well-being in the schools from preschool to 
higher education. I have the opportunity to be able to teach 
college courses for Head Start professionals, to help them 
transition into a career development type program. When you 
have Head Start programs in your community, those are low-
income communities. Then you are bringing in parents to work in 
Head Start, the kind of funding that Head Start needs isn't 
being realized.
    So just overall, the funding isn't adequate at all. I would 
like to see doubling of all our Indian education budgets that 
we have. If we really wanted to get down to it, I would love to 
have you come up to my community, or any community, and talk 
about some of these issues. It is a very comprehensive need 
that we have.
    Senator Murkowski. You are a terrific advocate. I 
appreciate that.
    Mr. Keel, I want to ask you a question about the energy. 
There are, within the Department of Interior and Department of 
Energy, Indian energy offices. The President has requested a 72 
percent decrease for the Indian energy office at the Department 
of Energy. This is something that the Chairman has raised 
repeatedly, in terms of economic development, there are so many 
opportunities, if we could just gain access to those energy 
resources.
    What impact do you think this will have on the development 
of energy on tribal lands? Anything more in your mind that 
needs to be done? If you could just speak specifically to that.
    Mr. Keel. Well, economic development, you are exactly 
right, Senator, and thank you for that question. The energy 
resources, the natural resources that are contained in many 
Indian lands are there that need to be developed and provide an 
opportunity for Indian Country to develop those. I think the 
impact of reducing the assistance or the opportunity for tribal 
leaders to access funds, either for technical assistance or for 
Indian financing, to attract those developers to come and 
assist in getting those resources there out of the ground is 
just tremendous. I think it will have a negative impact across 
the board.
    If you look at, for instance, North Dakota, the Three 
Affiliated Tribes are now at the point of being able to develop 
some oil and gas that is contained on their lands. That wasn't 
possible years ago. I think around the country there are tribes 
that are poised to develop those resources. But they need 
assistance. And they just simply don't have the funding to 
develop those resources. Any cuts in the Federal assistance 
will severely affect them.
    Senator Murkowski. Thank you. Thank you, Mr. Chairman.
    The Chairman. Senator Murkowski, thank you very much.
    With respect to the Three Affiliated Tribes and energy 
development, let me mention that sometimes it is not money. 
With the case of the Three Affiliated Tribes, we had an area 
right in the middle of the hottest oil clay in America, the 
U.S. Geological Survey said there is up to 4.3 billion barrels 
of oil that is recoverable using today's technology. So if you 
took a look at a map of where oil was being drilled as a result 
of that activity, just the hottest activity in the United 
States, the biggest assessment of recoverable oil in the 
history of the lower 48 States, by the way.
    So take a look at a map and see what was happening, here is 
the Indian reservation, they are drilling wells north of it, 
drilling wells west of it, drilling wells south of it, but 
almost no activity on the reservation. So I went to the 
Interior Secretary and said, look, you have a 49 step process 
in order for somebody to get a drilling permit. You have four 
separate agencies inside the Interior Department that have to 
be involved in the approval process. And it just doesn't work. 
You can't get anything approved.
    I got them to do a one stop shop on the reservation with 
the four agencies and streamline the approval process. That was 
about a year, maybe 15 months ago. Now we have 17 drilling rigs 
drilling right now for oil. We have 39 holes already dug and 
oil is pumping from all 39. So a substantial amount of 
activity. And it wasn't a requirement to appropriate more 
money. It was just a requirement to stop the nonsense about 45 
steps and four separate agencies. If you are on State land or 
private land, you get a drilling permit in North Dakota just 
like that, in a matter of a couple of days. But it would take 
many, many, many months on the reservation.
    We have fixed that now, not completely, but we have fixed 
it sufficiently so there is a lot of activity on that 
reservation. But there is powerful opportunity to develop 
energy resources all over the Country on Indian reservations in 
a wide range of areas. We have to find ways to unlock that.
    In fact, in my State, while a lot of people are now 
experiencing the benefits of oil development, I was told of a 
person in North Dakota who sent a $200,000 check back to the 
oil company, saying, well, this must be a mistake, and the oil 
company said, no, no, you are going to get those regularly, it 
is not a mistake at all. An oil well was on their land and it 
was a big, pumping well. If ever in North Dakota there was an 
area that needed that, it was the area with the highest 
unemployment, and the highest level of poverty and that was on 
the Indian reservation. That was the area that wasn't getting 
the opportunity.
    So that is a long way of saying that the point isn't always 
more money. The point is, a little more sanity in some of these 
requirements and rules and regulations.
    Let me just quickly ask, as we close this hearing, Mr. 
Shuravloff, you and I talked earlier this week about this. But 
if the $120 million is taken out of the Housing Block Grant, 
what are the consequences for the tribes?
    Mr. Shuravloff. Chairman Dorgan, of course one of the 
things is, we are not going to see the money to build like we 
would like to build. But I think it defeats the whole purpose 
of ARRA. When we looked at it, it was to create jobs. As we 
looked at reduced funding of $120 million, in the long term 
over the next 3 years, we are going to see the exact opposite 
effect. We are going to be laying more people off than we would 
have probably to begin with had we been able to stay with some 
level funding.
    I think that it is just a big step backward for us to have 
to look at that kind of budget reduction and not just the 
reduced amount of construction we are going to be looking at, 
but the reduction of jobs in the future.
    The Chairman. We have a hearing room full of, not 
exclusively, but largely old codgers, I would call them. This 
is not a hearing room of high school kids, right? And if it 
were a hearing room full of high school kids, I would ask the 
question, but let me ask it of a hearing room full of older 
people. How many in this room have been benefited in their 
lives by the Johnson O'Malley program? Let's see you raise your 
hand.
    [Show of hands.]
    The Chairman. I thought so. And I think were this a group 
of high school students, I think from reservations, nearly 
everyone would have raised their hands. Ms. Whitefoot, you 
talked about the Johnson O'Malley program. I just wish that 
instead of talking about the Johnson O'Malley program, which is 
kind of an amorphous title, we talk about that, it doesn't mean 
much to anybody. But if we had kids sitting in these rows here 
talking about the investment it made in their life and what it 
meant to them to kind of get back on track and engaged in 
activities that made a difference in their life, people would 
have an entirely different view of Johnson O'Malley, wouldn't 
they?
    Ms. Whitefoot. I agree with you. As a matter of fact, I was 
with our high school students back in Washington State just the 
day before I traveled here. And I did ask them that question. 
So they did respond, because they were getting ready to write a 
letter to you about the benefits of Indian education. It has, 
for our senior students, it is helping to provide for their 
caps and gowns. They are getting ready for graduation. It also 
helps provide supplies for their senior projects that they have 
to do. It also provides for transportation, because they have 
gotten to travel to the University of Washington. Also, they 
have been able to visit the Portland Museum and Zoo. They have 
also been to learn more about their heritage and their culture 
on the Columbia River Basin. We are in south central Washington 
State, and we traveled to Portland.
    So they got to learn more about their history. So when I am 
traveling with students, I am also talking about their history 
and their identity. I would like to just share also, we have 
had some leaders who have, I think, helped to blaze the trails 
for us.
    I want to take a minute to introduce our interim executive 
director, if that all right with you, Chairman Dorgan. I would 
like to introduce and have him stand. Dr. Gerald Gipp, who has 
been one of those trail blazers for Indian education. Would you 
please stand, Dr. Gipp?
    The Chairman. Our Committee is well aware of Dr. Gipp. 
Thank you for being here.
    Ms. Whitefoot. I just wanted to acknowledge him that he is 
here in the audience as the interim director for the National 
Indian Education Association and that trail blazer for our 
Native youth.
    The Chairman. He does excellent work.
    I am going to ask Mr. Keel one question. But let me just 
mention to you, I spoke, some long while ago, at an Indian 
college graduation ceremony. I asked in the gymnasium as they 
were all putting on robes and so on, I said, who's the oldest 
college graduate here at the tribal college? They pointed to 
this woman.
    So I went over to her, and she was putting on this gown 
very proudly, I visited with her a bit. Then I asked somebody 
else about her and they told me her story, that she had been a 
custodian at the college, a single mother, I think she had four 
children. I believe her husband had left her. So she was a 
single mother, trying to make ends meet, didn't have very much. 
Worked as a custodian, cleaning the bathrooms and the hallways 
in the college.
    But on the day I showed up, she was a college graduate. 
Because she figured working those hallways and bathrooms and so 
on, she figured at some point, you know what, I have to do more 
than clean this place, I have to graduate from this place. The 
day that she graduated, she not only had a cap and gown on, she 
had a smile that she had earned with a lot of hard work that 
nobody could ever take from her.
    She had invested in herself, and it was only possible 
because you had a tribal college. Which meant that for her, a 
single mother with children, she had an extended family where 
she could get child care that she couldn't otherwise afford. 
She had opportunities in that tribal college setting to get an 
education where she couldn't have done it previously.
    So it described for me how incredibly important education 
is at every level, and especially the tribal college, which 
offers significant opportunities. It has always been a priority 
for me, and I have seen first-hand how great an investment it 
is in the lives of people, some of whom have felt their life is 
hopeless, but it was not.
    Mr. Keel, in the context of that, with very high 
unemployment and so on, in your testimony you talk about a 
number of programs for economic and energy development and so 
on. Has the National Congress any kind of a ranking about which 
programs that you think have priority, which are the more 
important versus the less important?
    Mr. Keel. Thank you, Senator. We have assembled a number of 
those, but we have not ranked those by order. One of the keys 
to economic development, as you mentioned earlier, is to remove 
a lot of the bureaucratic delays, for instance, of putting land 
into trust. Land is extremely important for tribes to engage in 
economic development or develop resources. The delays that they 
experience at the Department of Interior and other agencies is 
just horrendous. And it needs to be fixed.
    The other area would be health, energy development, 
housing. All of those things are important, and we have not 
rank ordered those, because they are all important and they are 
all connected in Indian Country.
    The Chairman. Let me as I close say thanks to Senator 
Franken. We have a Committee that all of whom work very hard 
and care very deeply about these issues. Senator Franken has 
been new to the Committee in this Congress, but I am really 
impressed with his attention and his devotion to trying to work 
on these Indian issues. Senator Franken, we will close this 
hearing, you and me. It has been 2 hours that I think has been 
very valuable and very important. I appreciate the witnesses 
who have traveled some long distances to be with us. These 
discussions will continue and the work will go on. From now we 
will talk about budgets and appropriations.
    This hearing is adjourned.
    [Whereupon, at 4:10 p.m., the Committee was adjourned.]

















                            A P P E N D I X

Prepared Statement of David M. Gipp, President, United Tribes Technical 
                                College

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
   Prepared Statement of Lloyd B. Miller, Sonosky, Chambers, Sachse, 
    Endreson & Perry, LLP on behalf of the National Tribal Contract 
                         Support Cost Coalition
    This testimony is submitted jointly on behalf of the National 
Tribal Contract Support Cost Coalition, comprised of the Shoshone 
Bannock Tribes of Idaho, the Cherokee Nation and Choctaw Nation of 
Oklahoma, the Shoshone-Paiute Tribes of Nevada and Idaho, the Riverside 
San Bernardino County Indian Health Consortium of California, the 
Pueblo of Zuni of New Mexico, the Spirit Lake Nation of North Dakota, 
the Confederated Salish and Kootenai Tribes and Chippewa Cree Tribe of 
Montana, the Forest County Potawatomi Tribe of Wisconsin, the Little 
River Band of Ottawa Indians of Michigan, and the Copper River Native 
Association, Alaska Native Tribal Health Consortium, Arctic Slope 
Native Association, Kodiak Area Native Association, and Yukon-Kuskokwim 
Health Corporation of Alaska.
    As this Committee is aware, contract support costs represent the 
fixed costs which Tribes and tribal organizations must incur when they 
carry out self-determination contracts and self-governance compacts 
with either the Bureau of Indian Affairs or the Indian Health Service. 
Contract support costs cover such federally-mandated costs as annual 
independent audits, but also other necessary costs including liability 
and property insurance, accounting costs and the like. The majority of 
contract support costs are set by an indirect cost rate that is 
established by either the National Business Center within the 
Department of the Interior or the Division of Cost Allocation within 
the Department of Health and Human Services, and the remainder of those 
costs are set directly by the BIA and IHS.
    As this Committee is also aware from its extensive work over three 
decades in amending the Indian Self-Determination Act, when the BIA or 
IHS underfund fixed tribal contract support costs, the tribal 
contractors are left with no choice but to leave program positions 
unfilled to make up for the difference. Contract support cost 
underpayments thus cost jobs.
    By contrast, restoring contract support cost payments that are due 
under contracts and compacts permits Tribes and tribal organizations 
carrying out BIA and IHS programs to restore jobs. This is why Tribes 
and tribal organizations have often related to Congress that, despite 
its somewhat oblique name, the ``contract support cost'' issue is a 
jobs issue. Indeed, at even a high estimate of $100,000 per full-time 
equivalent employee, every $10 million increase in contract support 
cost payments produces 100 additional jobs (and even more jobs under 
contracts with IHS, where healthcare services lead to additional 
revenues from Medicare, Medicaid and other third-party payers).
    For the same reason, the contract support cost issue is a health, 
law enforcement, lands and government services issue. With each job 
lost due to a contract support cost underpayment a Tribe loses a police 
officer or dispatcher, a doctor or nurse practitioner, a realty 
specialist, an education counselor, or a child welfare worker. 
Strikingly, parallel programs that remain under IHS or BIA 
administration do not suffer such impacts. Thus the CSC shortfall 
penalizes Tribes that exercise their self-governance and self-
determination rights. It also disproportionately balances budgetary 
constraints on the backs of tribal contractors. If budget cuts or 
limited increases are to occur, equity dictates that such actions occur 
in portions of the budget that are shouldered equally by the agencies 
and the contracting Tribes.
    These are the policy reasons supporting full funding of contract 
support costs. But the legal reasons are even more compelling. The 
Indian Self-Determination Act mandates that full contract support costs 
shall be added to every contract. This mandate was added to the statute 
in 1988 and reinforced in 1994 by this Committee precisely to end once 
and for all the hardship visited upon tribal contractors struggling to 
maintain program levels when contract support costs are not fully paid. 
Wisely, this Committee mandated in Section 106(c) that each agency 
provide Congress with a mid-year report on contract support cost 
funding requirements, so that supplemental appropriations could be made 
before the year concluded in order to fully meet the government's 
obligation. It is a stunning criticism of the agencies that they have 
never provided a mid-year accounting of current year CSC shortfalls, 
and that they have never requested supplemental appropriations to 
address current year shortfalls. (Instead, both agencies have adopted a 
practice of making their shortfall reports one year late, long after 
Congress can do anything about it through the supplemental 
appropriations process.) The United States Supreme Court in the 2005 
Cherokee Nation case held that the contract support cost payment 
obligation is a legal contractual right that must be honored just like 
any other government contractor's right. Until the appropriations 
process matches this legal responsibility, litigation will 
unfortunately continue.
    Not only do policy and legal reasons support fully funding contract 
support costs; good sense supports fully funding those costs. This is 
because no initiative in Indian Affairs has been more successful both 
in promoting local self-determination and in improving and expanding 
the quality and quantity of federal programs in Indian country than has 
the self-determination contracting/compacting process.
    In May 2009 IHS projected an approximate $150 million shortfall in 
FY 2011 contract support cost requirements, absent a further increase. 
A similar projection undertaken recently for the Bureau of Indian 
Affairs foresees a contract support cost shortfall of $68 million. 
These are the sums which should be appropriated in FY 2011 to finally 
meet the government's contract support cost obligations in full. While 
the President's proposed Budget increases for IHS and BIA are a 
significant step in the right direction ($45.5 million and $21.5 
million, respectively), these sums are plainly insufficient to meet the 
current requirement and will, instead, leave unfunded CSC shortfalls of 
$105 million for IHS and $46.5 million for the BIA.\1\
---------------------------------------------------------------------------
    \1\ Although the BIA's recent Budget justification reports that the 
President's contract support cost increase will permit the agency to 
meet over 90 percent of its CSC funding requirements, we have learned 
that this calculation was based on the BIA's funding requirements in 
2008 (which at the time that the Budget was prepared was the only 
reported number available). Although the CSC funding requirement in 
2008 was $204 million, in 2011 the CSC funding requirement is 
anticipated to be $234 million. Thus the amount proposed by the 
President will only be sufficient to cover approximately 80 percent of 
the BIA's total CSC requirement. Similarly, the President's requested 
increase for IHS contract support will maintain the average IHS CSC 
funding at roughly 80 percent of need, the same as it was in FY 2010.
---------------------------------------------------------------------------
    To the extent Congress concludes that budgetary constraints stand 
in the way of fully closing the funding gap in FY 2011, the National 
Tribal Contract Support Cost Coalition endorses the approach advanced 
by the Tribal Self-Governance Advisory Committee to the Indian Health 
Service, and by the Self-Governance Advisory Committee to the 
Department of the Interior, calling for the IHS $105 million shortfall 
to be closed within a three-year period, and calling for the remaining 
BIA shortfall to be closed within a two-year period. This can be 
accomplished by adding to the President's Budget proposal one-third of 
the remaining shortfall amounts specified above. For IHS, that means 
adding to the President's $45.5 million proposed increase approximately 
$35 million in each of fiscal years 2011, 2012 and 2013. For BIA, that 
means adding to the President's $21.5 million proposed increase 
approximately $15 million in each of fiscal years 2011 and 2012.
    Thank you for the opportunity to present this written testimony to 
the Committee on behalf of the National Tribal Contract Support Cost 
Coalition.
                                 ______
                                 
   Prepared Statement of Paul Iron Cloud, CEO, Oglala Sioux (Lakota) 
                                Housing
    Chairman Dorgan, Vice Chairman Barrasso, and distinguished members 
of the Committee. My name is Paul Iron Cloud and I am the CEO of Oglala 
Sioux (Lakota) Housing. I would like to start by thanking Chairman 
Dorgan for his leadership on Indian housing issues.
    As the CEO of our housing agency, I have great concerns over the 
President's proposed reduction of the budget for the Native American 
Housing Assistance and Self-Determination Act (NAHASDA). While most 
other federal Indian programs received increases or only slight 
reductions, the President has proposed slashing the NAHASDA budget by 
18 percent, thus reducing the amount available for affordable housing 
in Indian Country from $700 million to a mere $580 million. If the 
President's proposal stands, it would be the lowest level of funding 
ever given to NAHASDA in its entire thirteen-year history.
    Not only would the reduced funding be a huge blow to tribal housing 
across the country, but it would undo and potentially reverse any gains 
that the tribal and national economies have achieved from spending 
stimulus funds under the American Recovery and Reinvestment Act. The 
Oglala Sioux Tribe received over $8 million in Indian housing stimulus 
funds during FY 2009. These funds have already helped complete much-
needed renovations and playground construction and we have also begun 
the development of new homes. Oglala Sioux (Lakota) Housing has 
followed the federal mandate and successfully put these funds under 
contract for shovel-ready projects. As the Committee is no doubt aware, 
the stimulus funds cannot be used for the day-to-day operation of our 
program or homes. We must have NAHASDA funded at least at the current 
$700 million level in order to protect and leverage the gains made by 
the use of stimulus funds.
    You well know the crisis in Indian housing that exists on our 
Reservation; violence, suicides, over-crowding and deplorable housing 
conditions. Yet at the very time that our revamped and now highly-
regarded housing program at Pine Ridge is doing important things with 
NAHASDA and special Recovery Act funding, the Administration proposes 
an 18 percent cutback in NAHASDA appropriations. Oglala Sioux (Lakota) 
Housing has worked incredibly hard to do an exemplary job to re-start 
production of new housing units, to do vitally-needed retrofitting and 
modernizing of existing units and to ramp-up the private construction 
sector on the reservation. If the President's proposed cutbacks are 
enacted by Congress, it will once again pull the rug out from under our 
efforts.
    Oglala Sioux (Lakota) Housing needs 4,000 new units to fully 
address its housing needs. To achieve that goal would require a 
substantial increase in current housing funding. But a decrease in 
funding would be much more devastating for us. Reducing our annual 
NAHASDA funding would eliminate the limited number of new units that we 
have planned to build next year and it would also seriously impact our 
management and maintenance of our homes. Budget cuts would seriously 
damage our program and bring more suffering to many housing tenants and 
to those on our long waiting lists.
    HUD has in published comments have attempted to justify its 
proposed cuts by equating the NAHASDA funding to its only other 
substantial cut, the Public Housing Capital fund, but Public Housing 
has both a Capital and an Operating fund. HUD actually proposed 
increased funding for the Public Operating fund. Under NAHASDA, Indian 
housing has both its capital and operating funds combined into a single 
grant allocation. The cuts proposed by the Administration take both 
capital and operational funds away from the Tribes. Decreased funding 
for NAHASDA will drastically impact the management, operations and 
maintenance of tens of thousands of homes under current management in 
Indian Country.
    If the NAHASDA appropriation were simply to keep pace with 
inflation (which it has never done) the original initial allocation in 
1998 would have grown to a $835 million appropriation in the last 
fiscal year.
    On behalf of my Tribe, our housing program, and all the others 
affected by this proposed cut, I implore you to support and assist in 
maintaining or increasing the current NAHASDA appropriation of $700 
million. I want to again thank the Committee for its interest in fully-
funding affordable housing in Indian country.
    I would be happy to answer any questions you might have.
                                 ______
                                 
     Prepared Statement of Hon. Edward T. Begay, Chairman, Navajo 
                     Agricultural Products Industry
Introduction
    Good afternoon Chairman Dorgan, Vice Chairman Barrasso, Senator 
Udall, and distinguished members of the Committee on Indian Affairs. I 
am Edward T. Begay and I am the Chairman of the Navajo Agricultural 
Products Industry (NAPI), an economic agribusiness enterprise chartered 
under the laws of the Navajo Nation and managed by an independent Board 
of Directors and management team.
    On behalf of the NAPI, I am pleased to submit this statement 
relating to President Obama's Fiscal Year 2011 Budget request for 
tribal programs and initiatives.
Background on the Navajo Indian Irrigation Project
    The Navajo Indian Irrigation Project (NIIP) was authorized by 
Congress in 1962 and received a Federal commitment to build a 110,000-
acre irrigated farm project to be completed in 14 years. NAPI is an 
economic enterprise wholly-owned by the Navajo Nation and is charged 
with operating a commercial farm on the NIIP lands located in the 
northwestern part of the Navajo reservation in New Mexico. Forty-eight 
years later, the NIIP is only 75 percent complete contrary to the 
intent of Congress, the agreement negotiated by the Navajo Nation and 
the United States memorialized in the NIIP legislation (Pub.L. 87-483; 
76 Stat. 96), and the Government's treaty and trust obligations to the 
Navajo Nation.
    Today NAPI operates an 66,000-acre farm, generates $40 million in 
income, and employs more than 400 people. When complete, the farm will 
include 110,630 acres. In its operations, NAPI has stressed the use of 
the state-of-the-art technology and environmentally friendly practices. 
The major crops grown and sold by NAPI are alfalfa, corn, onions, wheat 
and small grains, potatoes, pinto beans, and cattle grazing. NAPI also 
leases land for specialty crops, including pumpkins, popcorn, and 
chipper potatoes used for potato chips.
    NAPI's agribusiness features state-of-the-art farming equipment, 
including high-tech radio control, and center pivot irrigation systems 
that efficiently manage water resources.
The President's FY 2011 Budget Request for the Navajo Indian Irrigation 
        Project
    On February 1, 2010, President Obama submitted to Congress a $3.8 
trillion budget request and proposed a 3-year freeze on non-defense, 
domestic discretionary spending. This category includes the bulk of 
programs and services for tribal communities, in particular Indian 
resources management construction programs.
    The budget request proposes $12.43 million for the NIIP. While NAPI 
appreciates the continued investment made in NIIP, we are disappointed 
that the current request fails to fully support the construction of 
Block 9 and efforts to complete the NIIP pursuant to Pub.L. 87-483; 76 
Stat. 96.
    Therefore, the NAPI strongly urges Congress to provide funding in 
the amount of $50 million for completion of construction of Block 9 of 
the NIIP. In addition, the component of the NIIP development for which 
the Bureau of Indian Affairs is primarily responsible, on-farm 
development (OFD), has been underfunded for years, so that the land in 
Block 9 for which the Bureau of Reclamation has already completed the 
primary irrigation infrastructure will not be usable for crops until 
2012 unless funding for OFD is not increased dramatically. NAPI urges 
the Congress to fund OFD in FY 2011 in the amount of $9.45 million. Due 
in large part to the underfunding of NIIP Operations and Maintenance 
(O&M) during the previous eight years, the deferred maintenance of the 
NIIP threatens the very integrity of the project. NAPI therefore urges 
Congress to increase NIIP O&M funding to $12.5 million in FY 2011. 
Finally, we request an appropriation of $750,000 for FY 2011 to fund 
the Agricultural Research and Testing Laboratory that serves all of the 
NIIP. We understand that these funding levels are generally consistent 
with those recommended by the Bureau of Indian Affairs.
    Utilization of a fully-built Block 9 will permit NAPI to augment 
its value-added programs, which now include a Fresh-Pack potato 
operation, a flour mill, and an expanding feedlot operation, and 
which--if sufficient land is made available--will include a potato 
processing facility with nationally respected partners. These 
initiatives will increase employment opportunities dramatically for the 
Navajo Nation and the Four Corners area, diversify and enhance the 
regional and State economies, provide greater profits and capital for 
further expansion by NAPI, and provide greater national food security. 
Simply put, NAPI believes completing Block 9 promptly and funding OFD 
and O&M appropriately is simply good economic policy for the United 
States.
Conclusion
    While NAPI is appreciative for the continued support to complete 
NIIP, the history of federal funding for the NIIP and related 
activities reveals that partial and delayed funding has resulted in the 
delay in economic opportunities, job creation, and chronic problems in 
maintaining irrigation equipment and physical infrastructure. These 
problems are exacerbated through time and each fiscal cycle that fails 
to provide the necessary funding.
    This concludes my written statement. Thank you again for this 
opportunity and please do not hesitate to contact me for additional 
information or questions.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
Prepared Statement of Mark Pruner, President, Native American Broadband 
                              Association

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
   Prepared Statement of Dr. Patrick Rock, President-Elect, National 
                     Council of Urban Indian Health

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
               Prepared Statement of Kawerak Incorporated

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
       Response to Written Questions Submitted by Hon. Tom Udall

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                        Hon. Thomas J. Perrelli

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Response to Written Questions Submitted by Hon. Tom Udall to 
                        Hon. Thomas J. Perrelli

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
